<html>
<title> - TURKEY'S NEW FOREIGN POLICY DIRECTION: IMPLICATIONS FOR U.S.-TURKISH RELATIONS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 TURKEY'S NEW FOREIGN POLICY DIRECTION: IMPLICATIONS FOR U.S.-TURKISH 
                               RELATIONS

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 28, 2010

                               __________

                           Serial No. 111-113

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
57-688                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8becfbe4cbe8fef8ffe3eee7fba5e8e4e6a5">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ELIOT L. ENGEL, New York             DONALD A. MANZULLO, Illinois
BILL DELAHUNT, Massachusetts         EDWARD R. ROYCE, California
GREGORY W. MEEKS, New York           RON PAUL, Texas
DIANE E. WATSON, California          JEFF FLAKE, Arizona
RUSS CARNAHAN, Missouri              MIKE PENCE, Indiana
ALBIO SIRES, New Jersey              JOE WILSON, South Carolina
GERALD E. CONNOLLY, Virginia         JOHN BOOZMAN, Arkansas
MICHAEL E. McMAHON, New York         J. GRESHAM BARRETT, South Carolina
THEODORE E. DEUTCH,                  CONNIE MACK, Florida
    Florida<greek-l>As of 5/6/       JEFF FORTENBERRY, Nebraska
    10 deg.                          MICHAEL T. McCAUL, Texas
JOHN S. TANNER, Tennessee            TED POE, Texas
GENE GREEN, Texas                    BOB INGLIS, South Carolina
LYNN WOOLSEY, California             GUS BILIRAKIS, Florida
SHEILA JACKSON LEE, Texas
BARBARA LEE, California
SHELLEY BERKLEY, Nevada
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Ross Wilson, Director, Dinu Patriciu Eurasia 
  Center, The Atlantic Council (Former U.S. Ambassador to Turkey 
  and Azerbaijan)................................................    14
Michael Rubin, Ph.D., Resident Scholar, American Enterprise 
  Institute......................................................    21
Ian Lesser, Ph.D., Senior Transatlantic Fellow, The German 
  Marshall Fund of the United States.............................    28
Soner Cagaptay, Ph.D., Director, Turkish Research Program, The 
  Washington Institute for Near East Policy......................    37

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable Ross Wilson: Prepared statement....................    17
Michael Rubin, Ph.D.: Prepared statement.........................    23
Ian Lesser, Ph.D.: Prepared statement............................    31
Soner Cagaptay, Ph.D.: Prepared statement........................    41

                                APPENDIX

Hearing notice...................................................    74
Hearing minutes..................................................    75
The Honorable Mike Pence, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................    77
The Honorable Eni F.H. Faleomavaega, a Representative in Congress 
  from American Samoa, and Chairman, Subcommittee on Asia, the 
  Pacific and the Global Environment: Prepared statement.........    79
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    82


 TURKEY'S NEW FOREIGN POLICY DIRECTION: IMPLICATIONS FOR U.S.-TURKISH 
                               RELATIONS

                              ----------                              


                        WEDNESDAY, JULY 28, 2010

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:02 a.m., in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. The committee will come to order. In a 
moment, I am going to recognize myself and the ranking member 
for up to 7 minutes each for purposes of making an opening 
statement. I will then recognize the chairman and ranking 
member of the Europe Subcommittee, if they wish, for 3 minutes 
each to make opening remarks. All other members will then have 
the opportunity to make 1-minute opening statements if they 
wish to do so. Without objection, members may also place 
written statements in the record.
    The purpose of this hearing is to gain insight into the 
changes in the foreign-policy direction of our long-time ally 
Turkey. Now the sixteenth-largest economy in the world, Turkey 
is a complex country, endowed by geography with circumstances 
that connect it to developments in at least a half-dozen 
regions and sub-regions.
    Turkish foreign policy is also complex. Turkey is an 
important ally to the United States in NATO and now 
particularly so in Afghanistan, where it has 1,700 troops, 
heads the Kabul Regional Command, and makes other important 
contributions. Turkey is also a critical transit point for 
provisions for our troops in Iraq.
    But it is Turkey's recent and worrisome policy turns 
regarding Iran, Israel, and the Palestinians, and the larger 
implications of those policies, that are likely to form the 
basis for much of today's discussion.
    One State Department official recently put it this way: 
``There is a lot of questioning going on about Turkey's 
orientation and its ongoing commitment to strategic partnership 
with the United States.''
    I am among those that have such concerns, and that is why 
we are holding the first full committee hearing devoted 
exclusively to Turkey within my memory.
    For some people, concerns about Turkey's direction first 
came to the fore almost immediately in November 2002, when the 
religiously-oriented AK Party won a powerful parliamentary 
majority. For others it was in March 2003, when the Turkish 
Parliament voted down the U.S. request to allow the U.S. Fourth 
Infantry Division to cross Turkish territory as part of the 
Iraq war.
    I was not in either of those groups. After the AK Party was 
elected, I was encouraged by their focus on internal reform and 
the European Union, as well as by the hopeful prospect that AK 
would be a model for a moderate Islam that would inspire others 
throughout the Islamic world. I have also been encouraged by 
what has, at times, been a foreign policy less rigid and less 
nationalistic than traditional Turkish policy.
    But for me the evidence of a negative foreign-policy shift 
by the AK Party government has been clear at least since 
February 2006, when Turkey invited Hamas leader Khaled Mashal 
for a visit. Until then, Turkey had seemed as solidly anti-
terrorist as any country in the world. At the time, the Turks 
indicated they merely hoped to moderate Hamas, but now, with 
the passage of well over 4 years of regular contacts between 
Hamas and Turkey, it is clear that Hamas has not changed at 
all--but Turkey has. And the contacts continue more intensively 
than ever.
    The intensity of Prime Minister Erdogan's anger at Israel 
became clear for all to see at Davos in February 2009. Since 
that time Turkey's growing closeness with Iran has added, for 
many of us, a new dimension of outrage and concern.
    Concerns about Turkey hit a new peak with the flotilla 
incident, the apparent ties of some AK Party and the Hamas-
associated non-governmental organization IHH, and the Turkish 
vote against U.N. Security Council resolution 1929, the 
historic sanctions resolution aimed at curbing Iran's nuclear 
program. Earlier this week Turkey's Finance Minister asserted 
that his nation would boost trade with Iran, while ignoring all 
non-U.N. sanctions. That is an upsetting position when Russia 
takes it, but it is appalling when it comes from an ally.
    All of these developments raise many questions.
    Is Turkey moving away from the West? Or is it merely taking 
independent positions regarding the Palestinians and Iran, 
however objectionable to us, while otherwise remaining 
committed to the Western alliance?
    Is the AK Party government seeking a greater leadership 
role in the Middle East, and, if so, what does that mean?
    What is the AK Party's vision for Turkey? Is it committed 
to democracy? To European Union membership?
    And how crucial is Turkey to us as an ally? How important 
is the United States to Turkey's interest? How does Turkey view 
its alliance with the United States?
    Certain points are beyond dispute: First, Turkey is indeed 
seeking to enhance its standing in the Middle East--some say, 
it is seeking to leave the Middle East--and it is using 
criticism of Israel and backing for Hamas to support that bid.
    Second, Turkish contacts with Hamas are deeply offensive. 
They undermine the pro-peace Palestinian Authority and 
therefore they ultimately undermine prospects for peace. And, 
although we can't compel Turkey to view Hamas as a terrorist 
group--Prime Minister Erdogan has labeled it a ``resistance'' 
group--we should expect Ankara to at least respect the 
terrorism list of an important ally, namely, the United States.
    This is particularly true when the United States is 
actively aiding Turkey in its fight against the Kurdish 
separatist terrorist group known as PKK. The U.S. has been 
providing Turkey real-time, ``actionable'' intelligence against 
the PKK since December 2007 in response to a direct appeal from 
Prime Minister Erdogan.
    Third, it is critical that Turkey acknowledge the genocide 
committed by the Ottoman Empire against the Armenian people 
during World War I. That is why this committee has repeatedly 
passed measures recognizing the genocide and calling on the 
President to do likewise. I believe the Turks, once they come 
to terms with their past, will discover that they have relieved 
themselves and their children of an immense moral burden.
    Fourth, we also want to see more movement on the Cyprus 
issue. We want to make sure that the new Turkish Cypriot 
leader, who has always opposed a solution, negotiates in the 
spirit of the U.N. resolutions and inter-communal agreements 
that require a solution. It is time for Turkey to draw down its 
absurdly high troop level in northern Cyprus. And Turkey should 
cease settling Turkish citizens in northern Cyprus. Northern 
Cyprus is not sovereign Turkish territory.
    Fifth, we want to see true press freedom in Turkey. Press 
intimidation has no place in democracies.
    We also want full freedom for religious minorities in 
Turkey. It is time for Turkey to recognize the ecumenical 
nature of the Greek Orthodox Patriarchate and it is certainly 
time for Turkey to allow its Greek Orthodox citizens to reopen 
the Halki Seminary.
    Not all of these problems began with AK Party control of 
government. But the AK Party government has brought to the fore 
new issues of concern. I am eager to hear our witnesses' views 
as to just how concerned we should be, what course Turkey is 
likely to take in the future, and what, if anything, our 
Government should be doing differently in its policy toward 
Turkey.
    Let me now turn to the ranking member, Ileana Ros-Lehtinen 
for any opening remarks that she might like to make.
    [The prepared statement of Chairman Berman follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, for this 
hearing. Since the days of the Truman Doctrine in the late 
1940s, the United States and Turkey have had a strong 
relationship that has served both countries' interests. This is 
not to say that there have not been serious disagreements. We 
have long called on Turkey to end its illegal occupation of the 
northern portion of the Cyprus and to implement more 
appropriate policies toward the Greek Orthodox ecumenical 
patriarchate in Istanbul. Still there continue to be areas in 
which our two countries reap significant benefits from this 
relationship. Although the Soviet Union is long gone as a NATO 
ally, Turkey still has U.S. guarantee of support if it is 
threatened militarily.
    As part of NATO, Turkey has the opportunity to participate 
with the United States and other member states in the area of 
missile defense. As Turkey's ally, the United States, in turn 
is allowed to use Turkey's Incirlik Air Base to support the 
military operations that we have in Afghanistan, and has 
Turkey's active support in that operation. Both countries also 
actively cooperate with each other in fighting extremism, and 
that is extremely important both because our nations have been 
targets of horrible attacks and continue to face a threat of 
future very serious attacks.
    The U.S. and Turkey are significant partners in trade and 
commerce which is obviously an important fact in this kind of 
increasing global economic uncertainty. This hearing today 
however reflects a fact that we may be at a turning point in 
U.S.-Turkish relations. The policy disagreements that have 
emerged in recent years pose serious challenges to the 
bilateral relationship. These include Turkey's opposition to 
the sanctions on Iran that have been sought by the United 
States and its other NATO allies in Europe. Turkey's move 
instead to rapidly increase its commercial relations with Iran. 
I note this in regard that just this week it, was reported that 
Turkey and Iran have signed a new agreement on natural gas 
pipeline from Iran to Turkey in defiance of U.S.-led efforts to 
cut off energy investment development and trade with Iran.
    The Turkish Government's provocation in supporting the May 
31st violation of the naval blockade on shipments to the Hamas-
controlled Gaza strip. Turkish authorities then encouraged 
efforts at the United Nations to demonize and condemn our 
democratic ally, Israel. And that current Turkish Government 
verbal attacks on Israel and the Turkish Government support for 
Hamas, which is designated by the United States as a terrorist 
organization.
    No country has a foreign policy that is completely divorced 
from its domestic political affairs, and Turkey's ongoing 
internal changes and their impact on its foreign policy are no 
exception to that rule. The relationship between Turkey's 
internal developments and its foreign policy is, in fact, a 
subject of debate that makes this hearing today very timely. 
Everyone seems to agree that this is not your grandfather's 
Turkey anymore.
    But the fundamental question for Turkey's future foreign 
policy is how great a change in Turkey's internal political 
government--governance, and social and cultural practices does 
the current Turkish Government intend to seek. The majority 
justice and development are AK Party and Turkey is clearly an 
Islamic party. What is being debated is how far will it try to 
go in breaking down the separation of state and religion that 
has been the hallmark of Turkish governance since the Mustafa 
Kemal Ataturk ended the Islamic caliphate in Turkey in the 
1920s.
    The ability of the Turkish military, a bastion of 
secularism to fend off the rise of dedicated Islamists, within 
its officer core, appears to be weakening. The manner in which 
the current Turkish Government has conducted its investigation 
into an alleged military plot to insight a coup has reportedly 
involved questionable tactics, including extensive wiretapping, 
alleged illegalities and the collection of evidence and lengthy 
indictments. There have been serious allegations of pressure by 
the current government on media organizations that do not 
support its policies.
    The government proposed constitutional reforms, if adopted, 
would appear to greatly increase its control over the Turkish 
judiciary, another traditional bastion of secularism. In fact, 
some observers say that the Turkish Prime Minister may be 
following the pattern of the current Russian Prime Minister in 
the past decade. That is steadily putting in place the building 
blocks for an authoritarian regime that would perpetuate the 
AKP's hold on power. Is the AKP government seeking to be a more 
active party in Middle Eastern affairs? A more Islamic voice in 
world affairs, a stronger voice in global economic affairs in 
the G-20 group of nations, or a partner with Russia, China, 
India and Brazil in the so-called BRIC group.
    Ultimately, we need to ask, what does this mean for U.S.-
Turkish relationships? In our committee's hearing on trans-
Atlantic security in March, I noticed some concern over the 
positions of several leading NATO allies in Europe in dealing 
with Russia's aggression and corruption in contributing to the 
NATO operations in Afghanistan, in sharing with the United 
States the cost of fighting Islamic militants and maintaining 
global security. I said at that time Europe remains important 
to the United States, but our calls for support must not go 
unheeded. I suggest that that applies to our relationship with 
Turkey today as well.
    Thank you, Mr. Chairman, for this timely hearing.
    Chairman Berman. Thank you very much, Ms. Ros-Lehtinen. And 
now I am pleased to recognize the chair of the Europe 
Subcommittee of our committee, the gentleman from 
Massachusetts, Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. We hear a lot these 
days about Turkey's so-called drift. Drift from the West, drift 
from democracy, drift from secularism. But that is not 
surprising because there are multiple agendas at play in the 
world today. Some raise fears about the so-called Islamist 
influences. They speak of losing Turkey as if Turkey were about 
to spawn a new Calafat and destroy the Christian West. How 
absurd. The fact is that the United States and Turkey have 
cultivated a long-term, solid relationship, that has been 
critical in support of American national interests, as well as 
Turkey's. That relationship is persevered and has been 
sustained in war. They fought at our side during the Korean 
War. During the Cold War, they were NATO's southeastern flank 
against the former Soviet Union, and now they are playing a 
critical role in Afghanistan. And it continues in peace with 
efforts on both sides to increase the commercial relationship 
between the United States and Turkey.
    And importantly, it serves as a countervailing force to 
Iran in this volatile region. Absent Turkey, Iran would be a 
hegemon in a region where the United States has vital national 
interest. The alliance will persist because it is in our 
interest and it is also in Turkey's interest. Of course, there 
are changes ongoing in Turkey and in its relationship with its 
neighbors. But today's Turkey remains essentially as it was in 
the days of Ataturk, a secular Nation with a Muslim majority.
    What is changing is that Turkey's becoming more democratic. 
Let's not forget that the Turkish military regularly overthrew 
and manipulated elected governments. The most recent coup was 
less than 13 years ago. Under the current government, Turkey 
has brought more civilian control over the military and 
increased the participation of its citizens in the democratic 
processes. This government has made significant efforts to 
bring Turkey in line with the democratic standards of the 
European Union. So if you have a problem with changes in 
Turkey, while maybe you have a problem with democracy and the 
democratic processes.
    I noted that one of today's witnesses suggests that we 
encourage the political opposition in Turkey, presumably we 
should choose sides. Well, we tried that in Latin America and 
it didn't work very well. I suggest that we let the Turks 
decide what is in their best interest. It will work to our 
advantage in the long term. Ironically Turkey's--I would ask 
the chair to indulge me for another minute.
    Chairman Berman. Without objection, the gentleman is 
recognized for 1 additional minute.
    Mr. Delahunt. Ironically Turkey's democratic improvements 
come at a time when the EU is divided over Turkey's accession. 
I agree with Secretary Gates who believes that this is one of 
the factors driving Turkey to expand its diplomatic and 
economic ties else somewhere. Just yesterday, the new 
conservative British Prime Minister, David Cameron, said that 
while advocating, he was advocating for full Turkish membership 
in the EU. Here is what he had to say, some people seem to 
oppose Turkey joining the European block because they willfully 
misunderstand Islam. Simple fact, the alliance between America 
and Turkey has served our national interest for over 60 years, 
let's not delude ourselves, we need Turkey and Turkey needs us, 
and with that, I yield back.
    Chairman Berman. The gentleman has yielded back his time. 
And do any members wish to make opening statements? The 
gentleman from New York--oh.
    Mr. Royce. Mr. Chairman.
    Chairman Berman. No.
    Mr. Royce. I will just----
    Chairman Berman. No, the gentleman from California is 
recognized in place of the other person from California for 3 
minutes.
    Mr. Royce. Thank you, Mr. Chairman. The reason I think I 
will make a few remarks here is because for those of us who are 
concerned about Turkey, I think we should recognize some of the 
recent events that have really called into question the 
intentions of the Turkish Government, and not to do so, I 
think, would be a mistake. I think for us to remain silent on 
the issue of dissidents in Iran pushing for democracy and there 
has been no outcry from the Turkish Government in order to try 
to show solidarity in any way with democracy in Iran with an 
election which was undermined. To me, this is hard to equate 
with the thought that what we are seeing in Turkey is more 
democracy. I don't think that is necessarily true.
    When we see the Turkish Government show solidarity with 
Islamist states like Sudan, for those of us who have worked on 
the Sudan problem, it is hard to figure out why the ruling 
party in Turkey would embrace that position while it takes 
shots at more moderate secular governments like Egypt, Jordan 
and Tunisia. I remember a piece in The Wall Street Journal 
entitled ``Turkey's Decline Into Madness.'' It may be 
overstated, but it points out all the conspiracy theories 
bouncing around within the ruling party in Turkey. Our own 
Ambassador to Turkey had to bring in the Turkish media to 
explain that the tsunami in the Indian Ocean in 2004 was not 
caused by the United States setting off a nuclear blast under 
the sea. Is the government in Turkey really trying to put these 
rumors to bed or are they feeding these rumors, and why do they 
do so?
    I spoke a little bit about the embrace of the position of 
Sudan in states like that. On the other hand, the Turkish 
Government refers to some of the actions of Israel as being 
driven by a terrorist state. This does not show balance or an 
attempt to help resolve problems in the regions.
    Chairman Berman. Does the gentleman--recognized for 1 
additional minute.
    Mr. Royce. I appreciate that.
    On top of that, relations with Armenia and Greece are very 
frayed. If Turkey wanted to resolve some of these problems, it 
could put forth their best effort and move its foreign policy 
forward, but there is no rapprochement there that I see. 
Turkey's blockade of Armenia remains intact. You still have 
40,000 of its soldiers embedded in Cyprus.
    Clearly they could work out some kind of an arrangement 
where they could take a lot of those soldiers back into Turkey. 
And yet you have these policies that create plenty of problems 
for Turkey. And for us not to point these out and not try to 
encourage Turkey to take positions, which I think are in the 
long-term interests of peace and stability in that region, 
would be a mistake. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from New York, the chairman of the Middle East and 
South Asia Subcommittee. For purposes of our committee's 
jurisdiction, Turkey is in Europe. You are recognized for 1 
minute<greek-l>s deg..
    Mr. Ackerman. Thank you, Mr. Chairman. Turkey's foreign 
policy over the past few months has been a considerable 
disappointment. Turkey's vote against U.N. sanctions on Iran, 
demagoguery over the Gaza flotilla, and President Erdogan's 
embrace of the dictator from Syria and Iran and the terrorists 
from Hamas are all deplorable and grossly irresponsible. But I 
can understand Turkey wants good relations with its neighbors 
and hopes to play some sort of a mediating role.
    On Monday, however, the Financial Times quoted Turkey's 
Finance Minister as saying with regards to Iran, ``[t]he 
facilitation of trade that is not prohibited under U.N. 
resolution should and will continue,'' he said. I want to be 
blunt, preventing Iran from acquiring nuclear weapons is an 
absolutely vital U.S. national security interest, and any 
effort to undermine, undercut or circumvent or bypass U.S. or 
other international sanctions against Iran will have grave 
consequences for our bilateral relations, no exception, no 
excuses. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from New Jersey, Mr. Smith, is recognized for 1 
minute.
    Mr. Smith. Mr. Chairman, thank you for convening this very 
important and timely hearing. The Turkish Government's foreign 
policy raises serious human rights concerns regarding Cyprus; 
its military occupies and promotes illegal migration into the 
northern part of the island where it destroys churches. 
Regarding Armenia Ankara has a policy of aggressive genocide 
denial. Ethnic Kurds are subject to assimilation pressures and 
the Ecumenical Patriarch and the Halki Seminary as well as 
Syrian Orthodox monasteries are under relentless pressure.
    Now the Turkish Government further realigning its foreign 
policy toward Iran. It has become openly hostile to Israel, 
broadcasting anti-Semitic programming on state-sponsored 
television. Prime Minister Erdogan's statements just recently 
in June professing ``understanding'' for those who compare the 
Star of David to the swastika was deeply troubling, and 
hopefully did not represent further deterioration of his view 
and his country's view toward Israel. And we are very--I am 
very--concerned as he is pursuing closer ties to Hamas. Again, 
I look forward to comments from our witnesses.
    Chairman Berman. The time of the gentleman has expired. For 
purposes of these 1-minute statements, we go in seniority 
order, and for the purposes of 5-minute question periods we go 
based on when members arrive, and therefore I recognize the 
gentleman from New Jersey, Mr. Payne, for 1 minute.
    Mr. Payne. Thank you very much. I think this is a very 
timely hearing. I have been one who has been very critical of 
Turkey's occupation of northern Cyprus, I do believe that they 
should bring their troops out of Cyprus, although things have 
eased there, it is far from a settlement. So I agree that 
Turkey certainly needs to reveal its Cyprus policies. There is 
no question that Turkey is starting to flex its muscles. You 
may recall the Ottoman Empire controlled half of the known 
world at one time. I think Turkey is starting to reemerge as a 
power. We need to remind ourselves that they are very good 
friends of the United States, and we need to ensure that we 
continue to have that friendship; however, we do need to work 
on them to understand and the Sudan situation. Although, each 
Egypt also is not very supportive of south Sudan, so I think we 
need to work there too. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Arizona, Mr. Flake. Do you seek recognition?
    Mr. Flake. No.
    Chairman Berman. The gentleman from Florida, Mr. Mack, is 
recognized for 1 minute.
    Mr. Mack. Thank you, Mr. Chairman. You know, we keep 
hearing about the relationship with Turkey and the United 
States and how important it is, but I need to remind people of 
the current actions and the recent actions Turkey has taken, 
whether it is in support of Hamas, opposition to sanctions with 
Iran and the role it played in the flotilla. These things we 
can't ignore, we just can't decide that we are going to 
continue to support a country that is working against our own 
interests. And I--you know, I can't help but to think only in 
Washington can you look at a series of actions like this and 
turn around and say, oh, but we can try to work through these. 
I would say this to Turkey. The relationship with Turkey is 
hanging by a thread. If Turkey wants to have a relationship 
with the United States, then Turkey needs to change the course 
in which it is heading.
    Chairman Berman. The time of the gentleman has expired. And 
the gentleman from New Jersey, Mr. Sires is recognized for 1 
minute.
    Mr. Sires. Thank you, Mr. Chairman. Start, thank you very 
much for holding today's hearing over U.S.-Turkey relation.
    Chairman Berman. You are welcome.
    Mr. Sires. During its nearly century of existence, the 
Republic of Turkey and the United States have had their ups and 
downs, but in recent years, Turkey has proven to be an 
important strategic partner to our country as a NATO ally 
contributing to operations in Afghanistan and serving as an 
important bridge between Europe and the Middle East.
    However, I believe in recent foreign policy decisions made 
by the Turks such as voting against the U.N.'s sanctions on 
Iran are rightfully called for us to address the direction of 
our relation. While I do not think we should overlook the 
severity of these actions, I believe there must be--that we 
must approach the issue in such a way that will not isolate 
Turkey, our critical ally in the region. As we have seen, 
Turkey is more capable of acting independently on the world 
stage--okay, Mr. Chairman. Thank you very much.
    Chairman Berman. Finish the sentence.
    Mr. Sires. Critical relations between Turkey and the United 
States, but I am very concerned, I was going to get into 
Cyprus, but forget it.
    Chairman Berman. The gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman. Turkey and historical 
allies realigning its foreign policy goals, expanding trade 
relationships and redefining a strictly secular identity to 
domestic reform. These are, of course, seemingly positive moves 
for Turkey's economy, populace and future. As a matter of fact, 
these moves were accepted and even encouraged by Western 
allies. But today we find that one ambitious goal after another 
is moving at an unexpectedly rapid, even unsteady pace. And 
perhaps what is even more perplexing is that even Turks within 
Turkey can identify multiple discrepancies in the policies of 
Prime Minister Erdogan and his government.
    After years of surprises, I believe that next year's 
elections will be revealing to the United States, to Israel and 
the West as to Turkey's new direction. In the meantime, I hope 
that Turkish officials pay greater attention to messaging. 
Furthermore, assurances that any gains made in the Middle East 
will not be exchanged with traditional alliances would be 
welcome. And finally, Turkey will only prosper further if 
encouraged to solve disputes closer to home first, like Cyprus. 
I look forward to our distinguished witnesses' assessments and 
yield back the balance of my time.
    Chairman Berman. The time of the gentleman has expired. And 
the gentlelady from Texas, Ms. Jackson Lee, is recognized for 1 
minute.
    Ms. Jackson Lee. Let me add my accolades to you for having 
a timely and instructive hearing along with the ranking member. 
I have always said that this foreign affairs committee has 
taken its responsibility to the highest level. We are engaged 
in the foreign policy definition of the United States. Turkey 
has been an enormously strong ally of this Nation, and 
particularly as a Muslim country. We are concerned, though, as 
a sovereign Nation the detour that Turkey has begun to take.
    And I think it is important in this hearing to recognize 
that our mutual interests are interrelated. Strong Muslim, a 
democratic nation with a Nation as the United States is that 
believes in humanitarian involvement. We want to solve some of 
the problems that Turkey considers problems. We want them to be 
a good neighbor in the region, and I believe that we can have 
this common ground and common good if we look at each other 
with mutual respect and continued interest in our working 
relationship. I yield back, Mr. Chairman.
    Chairman Berman. The time of the gentlelady has expired. 
The gentleman from North Carolina, Mr. Miller. Do you seek 
recognition? No. The gentleman from Georgia Mr. Scott is 
recognized for 1 minute.
    Mr. Scott. Thank you, Mr. Chairman, this is indeed a timely 
hearing and I think it is very important that we set the 
conversation on its proper axis from the very beginning. Number 
one, Turkey is an important ally to the United States, its role 
in Afghanistan, the role is plays on the war on terror, they 
have troops over in Afghanistan, they allow us to fly over, 
supply our troops is very important. Thirdly, their work in 
terms of making sure that they have pipelines that will 
eventually be able to get energy into Europe without being 
dependent on Russia. However, the people of Turkey and the 
leadership of Turkey are going to have to face a serious 
question at some point, and this is when it comes to Iran and 
Israel and the United States. The course they are headed on is 
a face-to-face showdown with the question whose side are you 
on. Iran cannot and must not have nuclear weapons, and 
hopefully the people of Turkey will reassess that. Thank you.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Indiana, Mr. Burton, is recognized.
    Mr. Burton. Thank you, Mr. Chairman. All I want to say is, 
I think Turkey has been a great ally of the United States, we 
have NATO bases there and we need to keep that relationship 
strong. And at the same time, we need to make sure that we 
support Israel which has been one of the stalwarts and one of 
our best friends in the Middle East for a long, long time. That 
is why I had an opportunity to talk to the leaders from Israel 
and the Turkish Ambassador, and I urged them to take the time 
to sit down and try to work out their differences, especially 
because of the problem that occurred in the Mediterranean.
    But we support and really care about Israel and the 
stability of that country. We don't want to see weapons going 
into Hamas through the Mediterranean. And at the same time, we 
want to make sure that our relationship with Turkey remains 
strong. So I would hope some kind of rapprochement can be 
worked out, so that our good friends, Israel and Turkey, can 
come to an agreeable solution so that we don't have further 
problems in the Middle East, and we want to be sure weapons 
stay out of Hamas' hands.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from California, Mr. Costa.
    Mr. Costa. Thank you, Mr. Chairman. I thank the ranking 
member for--everyone has acknowledged a timely hearing. I am 
looking forward to hearing the witnesses this morning as to the 
current status of our relations with Turkey. It truly has been 
noted by the various comments. We are talking about two sides 
of the coin here today, the one side, of course, being the 
reliable strong ally and NATO partner where we have done 
actions over the years, I think with some success, a 
relationship that I think we both support. On the other hand, 
concerns with the involvement in Cyprus, for me, the inability 
to resolve the situation with Armenia, their lack of 
willingness to allow us to participate on the northern border 
of Iraq and the previous involvement, the blockade in Hamas, 
the U.N. sanctions and their limited willingness to portray 
Iran for the nuclear threat that it is I think causes us all 
concern. This moving eastward, the problems with less secular 
governing is something that I want to hear the witness talk 
about this morning.
    Chairman Berman. The time of the gentleman has expired. 
Does anyone else seek recognition? The gentleman from Texas, 
Mr. Green, is recognized for 1 minute.
    Mr. Green. Thank you, Mr. Chairman, for holding a hearing 
today, I want to welcome our panel. For decades the Republic of 
Turkey has been one of the Nation's strongest and most 
important allies and friends. Strategically located between 
Europe and the Middle East, Russia, Turkey has been a linchpin 
with many of our Nation's foreign policy initiatives going back 
to the Truman Doctrine and Turkey's entrance into the NATO in 
1952.
    More recently, Turkey has been very helpful on fronts of 
U.S. policy, including its assistance with Iraq's transition 
including its improved relations with the Kurdish regional 
government, and Turkey has been helpful in Afghanistan 
contributing troops, the allied forces and allowing resupplying 
and deployment through their country. Turkey has been a great 
friend of Israel; Turkey was the first Muslim majority country 
to recognize the state of Israel in 1949. Over the past 2 
decades, Israel has been a major supplier of arms to Turkey. 
Until very recently, Israel and Turkey's militaries worked 
closely together, best shown through their numerous joint 
military exercises. Mr. Chairman, I have some concern about--my 
concern today at this hearing hopefully will learn that you can 
be friends with your neighbors whether they are Jewish, 
Christian or Muslim, and hopefully Turkey do well with that, I 
would like my full statement placed in the record. Thank you.
    Chairman Berman. Full statements will be included in the 
record. The time of the gentleman has expired, and now we will 
hear from our witnesses. Our first witness will be Ross Wilson. 
Ambassador Wilson is the director of the Dinu Patriciu Eurasia 
Center at the Atlantic Council of the United States. He 
completed nearly three decades in the U.S. Foreign Service in 
December 2008. Serving as U.S. Ambassador to Turkey from 2005 
to 2008 and Azerbaijan from 2000 to 2003. In previous 
assignments, he served at the U.S. Embassies in Moscow and 
Prague and was American Consul-General in Melbourne, Australia.
    Michael Rubin is a resident scholar at the American 
Enterprise Institute, senior lecturer at the Naval Post 
Graduate School Center for Civil-Military Relations, lecturer 
on national security studies at Johns Hopkins University, and a 
senior editor of the Middle East Quarterly. Between 2002 and 
2004, he worked as a staff advisor on Iran and Iraq at the 
Pentagon. Dr. Rubin currently provides academic instruction on 
regional issues, including Turkey, for senior U.S. Army and 
Marine officers deploying to Iraq and Afghanistan, and also 
lectures on Iran, Israel, and North Korea in supplementary 
classes to the U.S. intelligence community.
    Ian Lesser is senior Transatlantic Fellow at the German 
Marshall Fund of the United States in Washington where he heads 
GMF's work on the Mediterranean, Turkish, and wider Atlantic 
security issues. Prior to joining GMF, Dr. Lesser was a public 
policy scholar at the Woodrow Wilson International Center for 
Scholars and vice president and director of studies at the 
Pacific Council on International Policy. A frequent commentator 
for international media, he has written extensively on 
international security issues. Dr. Lesser is also a former 
official in the State Department's Policy Planning Bureau.
    Soner Cagaptay is a senior fellow and director of the 
Turkish Research Program at the Washington Institute for Near 
East Policy. He has written extensively on U.S.-Turkish 
relations, Turkish domestic politics, Turkish identity, and 
Turkish nationalism, publishing both in scholarly journals and 
major international print media.
    Dr. Cagaptay has guest-taught at several major 
universities, including Princeton, and currently teaches the 
Area Studies course on Turkey for our Turkey-bound diplomats at 
the Foreign Service Institute.
    We are very pleased to have a distinguished panel of 
witnesses.
    Ambassador Wilson, why don't you start off? All of your 
statements will be included in their entirety in the record, 
and if you care to summarize them, we look forward to hearing 
from you and then engaging with you.

STATEMENT OF THE HONORABLE ROSS WILSON, DIRECTOR, DINU PATRICIU 
EURASIA CENTER, THE ATLANTIC COUNCIL (FORMER U.S. AMBASSADOR TO 
                     TURKEY AND AZERBAIJAN)

    Ambassador Wilson. Thank you, Mr. Chairman, for the honor 
of being included in this hearing today. I have had the honor 
of testifying before your counterpart committee in the Senate 
being with the Senate House Armed Services Committee with the 
Congressional CSE Commission under Mr. Smith, and it is a 
pleasure to be here under your leadership today.
    I am also honored to be part of this panel. Ian Lesser, and 
Soner Cagaptay are, I think two of our country's leading 
experts on Turkey. Michael Rubin is a scholar who has also 
written extensively on the Middle East and Turkish issues. I am 
very new to their world of think tanks, having joined The 
Atlantic Council just a few months ago. What I hope I add there 
and can add here is little bit of the practitioner's 
perspective based, as you noted, on 30 years service as an 
American diplomat, including the last 3 as American Ambassador 
to Turkey in 2005 to 2008.
    When I arrived in Turkey, our relations were poor. My 
Embassy, my U.S. Government colleagues pushed a number of 
initiatives and efforts to work through some tough issues. Iraq 
was the most important that--to us given that it was the source 
of our biggest problems in Turkey and given the stakes for our 
country in Iraq. We made it, we transformed it into a source of 
agreement rather than disagreement. At least with the 
government and Turkey became an important and positive employer 
in Iraq as a result.
    Iran was also a poor picture. On arrival, I was struck by 
three things, how limited our information sharing was on Turkey 
with Iran's nuclear program, how little we engaged with them on 
what to do about it and how much Washington complained about 
Turkey's lack of support. That didn't strike me as much of a 
strategy. And instead, we engaged in detailed, high level 
intelligence exchanges, consulted extensively on what to do, 
and got strong Turkish support for the approach taken by the 
United States and the other permanent members of Security 
Council especially in the years 2006 and 2007.
    On the Middle East, we got a dialogue going despite some 
ups and downs, and you noted some of them. We were kept fully 
informed on the mediation efforts with Syria and Israel. We 
managed our way through the 2006 Hezbollah war. Turkey helped 
with the evacuation of American citizens from Beirut. It joined 
the United Nations. It joined the Unit<greek-l>i deg.ed Nations 
interim force in Lebanon, the first deployment of Turkish 
forces to the Middle East since the collapse of the Ottoman 
Empire.
    The caucuses were a bigger problem. I know that you, Mr. 
Chairman, others on this committee and many Americans have 
strong views about the Turkey Armenia peace and about history 
that has not entirely been accommodated. I share some of those 
views. For that reason, I thought it was very significant in 
2007 when Turkey and Armenia themselves initiated discussions 
about normalizing their relations and opening the border.
    As you are aware, that process now has stalled. If it moves 
forward before long, it can still help to build the confidence 
that is necessary to resolve the Nagorno Karabakh problem 
between Turkey--between Azerbaijan and Armenia, and to help 
Turks and Armenians deal more effectively with their past, 
their present, and their future in a forthright manner, and I 
hope Congress can support that effort.
    Mr. Chairman, I have a longer statement that goes over 
these and other issues, I would like to see that entered into 
the record. Let just make 5 points.
    First, I think it is important not to over interpret recent 
events. I would not quibble with any of the negative images 
that you and that other members of this committee have 
highlighted. There have always been, as I think a couple 
members noted, ups and downs in U.S.-Turkish relations. Those 
who think they remember the halcyon days when everything with 
Turkey was easy and fine should probably reread their history. 
Turks have their own history, and I think we need to bear that 
in mind too. The idea that U.S.-Turkish relations is in great 
difficulty or is at a great turning point, frankly I don't 
agree with.
    Second, I think it is important to fill out what is 
sometimes a simplistic picture about Turkey. Despite harsh 
rhetoric, Turkey does support Israel's right to exist, it 
supports the goal of two democratic states living side and side 
in peace and security, and it supports negotiations to bring 
that about. On a wide range of other issues around Turkish 
periphery, in Afghanistan, and the Balkans and regarding 
terrorism, energy and other issues, Turkey's policies and its 
work remain consistent with the goals and objections of the 
United States. We should not lose sight of that.
    Third, on Iran, Turkish leaders seem almost desperate to me 
to keep negotiations going because they fear a headlong rush to 
war, that their people will not support and that they believe 
will inflame the region in highly unpredictable ways.
    Stated another way, I believe that Iran is one issue on 
which are we must have the support of Turkey probably for our 
diplomacy to succeed, definitely if it does not. Figuring out 
how to restore our unity on this matter is, I think, one of our 
most important tasks. The dire political defense and security 
implications of Iran's efforts under almost any likely scenario 
demand no less.
    Fourth, Turkey's very success over the last several decades 
has had important consequences that, generally speaking, are a 
good thing. As others have noted, it has prospered, it has a 
vibrant urban middle class and its people no longer want their 
country to be a bystander or the object of others diplomacy, 
they want to see their country act, they expect their 
government to do so. This is new and in this new environment we 
will have to have more effective ways of engaging public 
opinion and Turkish opinion shapers. Having had some experience 
at this, I can assure you it will not be easy, but in the long 
run, it will be better for our interests.
    Finally, I will repeat an exchange had I with a senior 
military officer who asked me recently with some exasperation 
what in the world are we going to do with Turkey? My answer to 
him was that we have no choice but to work with it and work 
with it and work with it. It is hard, it is frustrating and it 
is messy. I know that U.S. officials, including President Obama 
just a month ago with Prime Minister Erdogan in Toronto, has 
made this a priority including with some very direct words. 
These efforts will have to continue, we will have a strategic 
partnership, we will have a problematic partnership. I think it 
is going to continue to be one of our most important time 
consuming relationships over the next couple of years and I am 
sure this committee will be discussing it regularly. Thank you 
very much, Mr. Chairman.
    Chairman Berman. Well, thank you very much, Ambassador 
Wilson.
    [The prepared statement of Mr. Wilson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Berman. Dr. Rubin.

 STATEMENT OF MICHAEL RUBIN, PH.D., RESIDENT SCHOLAR, AMERICAN 
                      ENTERPRISE INSTITUTE

    Mr. Rubin. Chairman Berman, Ranking Member Ros-Lehtinen, 
honorable members, thank you for the opportunity to testify. I 
have gone into detail about how Turkey has changed my written 
testimony, but for the sake of time, let me highlight just 
three points. The AKP government has reoriented Turkey toward 
more extreme elements in the Middle East. Turkey's change is 
not reactive but deliberate. The AKP has made changes which 
will be difficult to reverse, even under new Turkish 
leadership. And for too long American officials have embraced 
Turkey as they wished it to be, rather than calibrate policy to 
what Turkey has become. The alliance with Turkey has become an 
article of faith.
    Despite growing evidence, Turkey is neither a reliable ally 
nor a force always for moderation. Trusting Turkey is not the 
basis of sound foreign policy. None of this means that the 
United States should dispense with its partnership. Turkey 
remains a member of NATO and conducts some heavy lifting in 
Afghan. Still, the U.S. Government should consider several 
issues relative to its future relationship with Turkey. 
Precisely because the F-35 will be the fighter the U.S. Air 
Force will most depend on to maintain air superiority in the 
coming decades. The decision to sell F-35s to Turkey whose 
future foreign policy orientation is in question, should be 
reviewed by appropriate Defense Department elements to assess 
possible loss of critical technology to states of concern. 
Congress should mandate that review, specify that it be 
completed within the year, and then make it available to 
appropriate committees.
    Second, while Incirlik remains a key regional base, 
Ankara's enthusiasm to seek unrelated concessions and to 
micromanage missions flown from Incirlik, suggests a lack of 
ideological affinity on some security concerns. It is a 
strategic malpractice not to advance contingency plans for the 
day when Turkey no longer allows the U.S. Air Force to us 
Incirlik or seeks to extract too high a price. The United 
States should develop contingency plans in NATO member Romania 
or develop another plan B.
    Third, while the United States welcomes Turkish involvement 
in the fight to stabilize Afghanistan, the current Turkish 
Government has not done enough to stop Turkish Jihadists from 
traveling to Afghanistan to fight for the wrong side, nor has 
it ceased providing safe havens to catch militants.
    Fourth, the United States should continue to support 
Turkey's fight against Kurdish terrorism, but simultaneously 
must pressure Ankara to acknowledge that its willingness to 
legitimize foreign terrorist groups based on the AKP's 
ideological affinity, hampers Turkey's own fight against 
terrorism, and could ultimately undercut Turkey's territorial 
integrity.
    Lastly, the Armenian genocide issue remains a hot button 
issue. Within the scholarly community, there is not consensus. 
While genocide study scholars say that the Ottomans committed 
deliberate genocide against Armenians, many Middle East 
scholars and military historians do not quite go that far. 
Congress should not silence debate among historians, rather, it 
should seek to facilitate it and demand that Turkey make its 
Ottoman archives open to all scholars, regardless of ethnicity 
or perspective, and also advocate that Armenia open its 
archives in the same manner.
    Thank you for your attention, I look forward to any 
questions you may have.
    [The prepared statement of Mr. Rubin follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Berman. Dr. Lesser.

 STATEMENT OF IAN LESSER, PH.D., SENIOR TRANSATLANTIC FELLOW, 
         THE GERMAN MARSHALL FUND OF THE UNITED STATES

    Mr. Lesser. Mr. Chairman, thank you. Mr. Chairman, 
distinguished members of the committee, thank you for inviting 
me to share some perspectives on Turkey's evolving foreign 
policy and its implications for the United States and U.S. 
policy. With your permission, I will offer a brief summary of 
my remarks. I would also like to note that these remarks are my 
own views, not those of the German Marshall Fund of the United 
States.
    Let me make just three points to you. First, I believe that 
these changes--and we have heard about some of these dimensions 
already--these changes in Turkey foreign policy are durable, 
they are the products of significant forces in Turkish society, 
particularly the affinities and concerns of Turkey's political 
leadership today and the rise of public opinion which counts in 
Turkish foreign policy today. All are playing a role. They have 
all played a role in where Turkey is going and they played a 
role in the flotilla crisis, and also Turkey's no vote on U.N. 
sanctions.
    There is an important commercial dimension to this activism 
which I think we should recall. It is fueled by impressive 
economic growth in Turkey on the order of 7 percent annually, 
11 percent in the last quarter, in the midst of a global 
economic crisis. This has fueled the confidence of the country 
and the political leadership, but it also is important to note 
that a lot of the growth in Turkey's economy, the investment, 
the new export markets, are not in traditional Western places, 
they are in the Middle East, they are in Eurasia. So to reverse 
a famous formulation, I think this is a case of ``the flag 
following trade.''
    Second, I think there is no doubt Turkey's current 
leadership is much more comfortable than its predecessors in 
conducting an active diplomacy across the Arab and Muslim 
world. Turkish public opinion, which does count today, 
increasingly reflects this. GMF's Trans-Atlantic Trends project 
is an annual survey of opinion on both sides of the Atlantic. 
The data for this year, which will be formalized in September, 
found the percentage of those in Turkey who say on 
international matters, Turkey should act in closest cooperation 
with the countries of the Middle East roughly doubled this 
year; roughly doubled this year since last year.
    But I would stress to you that this attention to the Middle 
East and Turkish policy is not the only element in a changing 
Turkey. Increasingly AKP leaders and their foreign policy 
advisors talk in terms strongly reminiscent of other emerging 
economic and political actors, including India. South Africa, 
Indonesia, Brazil. There is this non aligned aspect to Turkish 
policy, even as Turkey remains a NATO member, obviously, but 
also a conservative actor in its views about NATO strategy.
    Third, these changes which we are discussing will be very 
consequential for U.S. interests across a wide area; from 
European security, to relations with Russia, from energy 
geopolitics to missile defense. And they are also going to have 
an effect on our interests in relation to key issues in the 
Middle East, including Iran and the Middle East peace process.
    Let me just underscore, though, that this new look in 
Turkish foreign policy is a mix of positive and negative 
elements. Some of the negative elements have been mentioned. 
Let me just mention on the positive side from our interest 
perspective, Turkey appears to be committed to the 
consolidation of detente with Greece, which is very important; 
stability in the Aegean, which is very important; a 
multilateral policy in the Balkans, which is very important to 
us and has been mentioned. It has contributed to operations in 
Afghanistan and has quietly allowed us to use Incirlik airbase 
for very extensive airlift operations to support our coalition 
operations in Iraq and Afghanistan.
    Less positively, there has clearly been a decline in the 
weight of the trans-Atlantic flywheel, if I can put it that 
way, that is consequential for our interests. And particularly 
in the Middle East, although we share some basic interests and 
stability, we are clearly not on the same page when it comes to 
some key questions, including Iran and peace process diplomacy.
    Let me stress that Turkey itself has a very strong interest 
in preventing the emergence of a nuclear Iran, or even a 
nuclear-izing Iran, or a nuclear-ready Iran. This would have 
very negative consequences for Turkish security. That said, the 
AKP government clearly has a different view of how to deal with 
this problem. Against this background, it was not surprising 
that Turkey voted ``no'' on the U.N. Security Council 
resolution on sanctions on Iran.
    Again, on the Gaza flotilla incident, I think this 
underscores another shift in Turkish perceptions. My own view 
is that the strategic relationship between Turkey and Israel 
was the product of very distinctive circumstances in the 1990s, 
including a shared interest in the containment of Syria and 
Iran, and a public opinion that didn't count very much in those 
days, and was not very positive about Israel. All those 
conditions have changed.
    I think in some respect, these changes in Turkish-Israeli 
relations were inevitable, but clearly when it comes to the 
question of whether Hamas is a legitimate interlocutor, the 
peace process and other issues, we are simply not going to be 
on the same page.
    Mr. Chairman, let me conclude by noting some specific 
implications for U.S. policy. First, let me just support very 
strongly something that Ambassador Wilson said earlier. There 
really was no golden age in U.S.-Turkish relations, this has 
always been a tough relationship to manage, and will continue 
to be so. As I look ahead, I think we will see a relationship 
that is much more ala carte, if I can put it that way, than 
automatic, but there are some things that we can do, and things 
that we can avoid doing. First, I think with Ankara on Iran, we 
need to shift the debate from the political to defense 
requirements. I mean, Turkey has an interest in preventing the 
emergence of a<greek-l>n deg. nuclear Iran.
    As we look toward the NATO summit in November in Lisbon, I 
think we need to secure Turkish cooperation for the next steps 
in a ballistic missile defense architecture, which will cover 
them among others.
    Second, we need to rethink and possibly reinforce our 
cooperation in fighting the PKK and its bases of operation 
across the border in Iraq. We may even need to adjust to a 
situation in which PKK terrorism is not the only problem Turkey 
is facing in this quarter. The Kurdish issue is the biggest 
public policy challenge Turkey faces today, and it is 
developing a very troubling urban terrorism dimension. This is 
something I think we will be called upon to respond to, and 
will be a key test for the relationship in the future. It will 
affect our intelligence sharing and other things.
    Finally, a last point. The U.S. remains a very critical 
stakeholder in Turkey's European Union candidacy. I think it is 
far too simple to blame a lack of progress in Turkey's 
candidacy for Ankara's growing interest in the Middle East. But 
if Turkey's candidacy proves hollow, this could well interrupt 
or reverse Turkey's convergence with the West, further 
complicating an already complicated relationship with the 
United States.
    This has been the big project for Turkey and Europe, and 
Turkey in the West, and without it I think there is a 
heightened risk of Turkey's strategic decoupling from the 
trans-Atlantic community. And a lot of things, a lot of issues 
we would like to resolve, whether Cyprus, rapprochement with 
Armenia, closer NATO-EU cooperation, all will depend on 
progress in that area. So I think it is very, very important 
that our support for that process, Turkey's EU candidacy, is 
not diminished or weakened by the recent and very real 
differences with Ankara over the Middle East. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Lesser follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Berman. Thank you, Dr. Lesser.
    Dr. Cagaptay.

STATEMENT OF SONER CAGAPTAY, PH.D., DIRECTOR, TURKISH RESEARCH 
     PROGRAM, THE WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Cagaptay. Congressman Berman, Ranking Member Ros-
Lehtinen, and honorable members of the committee, thank you for 
inviting me to testify at this very important hearing today. I 
will present here a summary of my prepared remarks.
    Much has been said earlier in this town in the last few 
years about how Washington is losing Turkey and Turkey is 
drifting away from the West. Today I would like to provide an 
alternative analysis, and also come up with some suggestions 
for what that means for U.S. policy.
    So let's take a different view, and the view should be in 
2002 when the AKP came to power, the party promised to make 
Turkey a country fitting EU accession, a liberal democracy that 
is suitable for EU accession. To this end, the AKP would 
jettison Turkey's traditional role as the voice of the West in 
the region, instead making Turkey a center country, a regional 
power that can talk to the West and all of the Middle Eastern 
states at the same time.
    Has this happened? The answer is no. Turkey has become 
neither more liberal as a democracy nor has it become a truly 
central power in the region that can talk to the West and the 
regional countries at the same time.
    Here is what happened, and I will finish that up with some 
suggestions. When it came to power in 2002, the AKP promoted, 
at first, close ties with the West, although at the same time 
it openly bashed the United States and other Western countries. 
Some people looked at this and dismissed the rhetoric as 
domestic politicking; others did not. Now that rhetoric has 
shaped the minds of many Turks. Over 90 percent of the Turks do 
not read or write languages other than Turkish, so they see the 
world as reported to them and debated by their government. 
Rhetoric matters.
    In fact, I would say anti-Western rhetoric has been the 
periscope of the AKP's foreign policy thinking, a vision that 
does not consider Turkey a member of the transatlantic 
community.
    After reining in domestic checks and balances, for 
instance, slapping politically motivated fines on media, using 
wiretaps to intimidate its opponents, the AKP now feels 
comfortable in power, and this is why the party's foreign 
policy follows its previous anti-Western rhetoric. In other 
words, what happens in Ankara and Istanbul does not stay in 
Ankara and Istanbul. As the AKP has become more emboldened at 
home, it has felt freer to follow the foreign policy that it 
always desired.
    Now, there is good news. We have to start with the Turkish 
contribution to the United States on Iraq and Afghanistan. 
Without Turkey, operations in both places would be very 
difficult.
    Also good news on Cyprus. The AKP government aggressively 
pushed for a settlement of the Cyprus conflict, but that failed 
when the Greek Cypriots voted no.
    There is also a bunch of bad news. One of them is on the EU 
accession front. Turkey's EU accession is not in the making. I 
am a strong supporter of this process, and I think it is time 
for me to admit that that process is not moving ahead, not so 
much because of the EU objections but predominantly because the 
AKP does not share the dream of the liberal western Turkey.
    Despite its branding as a pro-Western political force when 
it came to power in 2002, the AKP never had a strategic view of 
EU accession; rather, it had a tactical view of this process, 
where it viewed accession to shed its Islamist image, gain 
legitimacy in Western capitals, and curb the power of the 
secular military. Having thus made itself palatable for Brussel 
bureaucrats and liberal Turks alike, in 2005, just as Turkey 
was supposed to start implementing hard reform towards 
accession talks, the AKP dropped the EU process.
    In a public demonstration of its lack of interest in 
Europe, the AKP declared 2005 the ``Africa Year.'' Now, if I 
was getting into the European Union, I would declare the decade 
the ``decade of Europe,'' to focus my energies on that.
    As a result, Turkey's reform process did not stop; it 
deteriorated. As the government resorted to jailing critical 
journalists under the pretext that they were planning a coup, 
Turkey dropped 20 spots in the Reporters Without Borders Press 
Freedom Index in 2008. Moreover, the government has used plot 
allegations, most infamously in the so-called Ergenekon case, 
to target its political opponents in the media, military, and 
academia.
    The AKP has especially gone after independent media, 
slapping media groups that are critical of its policies with 
politically motivated tax fines. Under the AKP, I would say 
Turkey has become more like Russia than Europe in terms of 
government-media relations.
    Has Turkey become more democratic under the AKP? Turkey did 
not become a democracy in 2002. Turkey was a democracy, has 
been a democracy since 1946. In fact, it has had more 
democratic transitions of government than some West European 
countries, such as Spain. The question is, Has Turkey become 
more of a liberal democracy under the AKP? The answer is no. 
Not in terms of media freedoms, not in terms of Internet 
freedoms, and not in terms of gender equality.
    Allow me, Mr. Chairman, now to turn to the Middle East for 
at the same time the AKP dropped the EU process, it engrossed 
itself in regional conflicts in the Middle East, and this is 
where I think the problem lies. There is an incongruity between 
the idea that Turkey can get involved in all conflicts in the 
Middle East and the party's alleged commitment to EU accession. 
When everything is a priority, nothing is; and no country has 
ever gotten into the EU without making membership a tough 
domestic and foreign policy priority. The AKP has instead made 
a 180-degree turn in Turkey's Middle East policy, moving closer 
to Iran and its proxies, Syria and Sudan, cooling off toward 
Israel.
    This was followed with the recent flotilla incident where 
ties with Israel hit an all-time low after the unfortunate 
incident in which the Israelis killed nine Turkish citizens. I 
would say this very sad act will not be forgotten in the 
Turkish national psyche for a long time.
    Problems have continued. On the other hand, I think because 
the AKP's foreign policy is guided--not because of religious 
sympathies, and there is often confusion on this in this town; 
this is not a party guided by Islam, it is a party guided by 
Islamism, an ideological view of the world. Prime Minister 
Recep Tayyip Erdogan and his government believe that Samuel 
Huntington was right; that there is a clash of civilizations, 
except they are on the other side of the Islamists and not with 
the West.
    Therefore, since 2002, the AKP has routinely taken steps 
that conflict with U.S. policy. Many distinguished members of 
the panel have mentioned that, as well as many members of the 
distinguished committee. And I think, suffice it to say, that 
the AKP has damaged many of the anchors that tie Turkey to the 
United States and to the West, from energy and pipeline 
politics to EU accession, to Turkey's traditionally pro-Western 
foreign policy toward the Middle East.
    Mr. Chairman, there is very little Washington can do to 
change the AKP's foreign policy outlook. It is what it is. But 
we can at least start by recognizing the following: In 2002, a 
lot of people celebrated the idea that the AKP would be a 
tribune of the West to the Muslim world. Now it appears that 
the AKP is a tribune of a politically charged and, by fiat, 
anti-Western Muslim world to the United States. So it is really 
the other way around.
    Allowing such an Islamist view as a catalyst into Middle 
East conflicts has produced and will continue to produce 
negative results. Because the AKP sees a clash of civilizations 
everywhere it looks, it cannot be an impartial mediator.
    For example, when the AKP was allowed to inject itself 
between Hamas and the Palestinian Authority, or the United 
States and Iran, it quickly became an ombudsman for the 
Islamist side, rising in their defense. What is more, after 8 
years of dominant and increasingly authoritarian AKP rule at 
home--and remember, what happens in Istanbul and Ankara does 
not stay there--many Turks now see the world through the 
Islamist eyes of a civilizational clash. It is very 
unfortunate.
    As a result, I would say the AKP foreign policy vision of 
making Turkey a center country which bridges the East and West, 
that can talk to Israelis and Palestinians, garners the trust 
of both Iran and the West, has failed as well as Turkey's 
ambitions to become more of a liberal democracy.
    In order to contain the AKP Islamist influence, I would say 
not only in Turkey, but in the region, the West must deny the 
AKP, first, the influence and the prestige which comes with 
being promoted as a regional mediator.
    There is a way forward, Mr. Chairman. Turkey remains a 
multiparty democracy, and only one-third of Turkey's population 
supports the AKP. Since the opposition Republican Peoples 
Party, CHP, elected a new, charismatic social democrat leader, 
Kemal Kilicdaroglu, the AKP has been sliding in the polls. As a 
result, the party has been using foreign policy more and more 
as a punching bag, creating vehement anti-Western rhetoric to 
boost its popularity. The elections are in Turkey next year. I 
would expect that the AKP will continue to use populist, anti-
Western foreign policy and rhetoric to boost its standing in 
the run-up to those elections.
    This suggests that the United States must develop a nuanced 
policy toward Turkey because Turkey itself is a nuanced 
country. It is the only Muslim country that is part of the 
West; and the question is, how do you scale back the AKP's 
policies while developing a real defense against its influence, 
and that would go through engaging the Turks?
    The alternative, a policy that targets the whole of Turkey, 
such as by passing the Armenian resolution or blocking military 
sales or other resolutions that would be seen as critical, 
would only push the Turks into the Islamists' arms, fulfilling 
the AKP's objective.
    In fact, what to do with Turkey first begs the question of 
what not to do with Turkey. In light of the AKP's campaign of 
rallying Turkish public opinion behind its anti-Western foreign 
policy, I would say the cardinal rule of the new era is simple: 
Do not offend the Turks. In other words, do no harm to Turkey.
    Then it is time to signal to the AKP that its anti-Western 
policies have a cost. To this end, Washington should deny the 
AKP political access. This will cost the party prestige that 
matters greatly in Turkish politics. So far, the AKP has been 
invited to Washington even as it transgresses U.S. policy in 
multiple areas, creating the impression that either Washington 
approves of its policies or considers the party indispensable 
to U.S. foreign policy. That is why a new thinking on access is 
to be considered.
    Mr. Chairman, a final part of this new U.S. policy is 
engaging the Turks. This can be done through initiatives that 
target the media, NGOs, political parties and business lobbies. 
It requires close contact between U.S. officials and these 
various institutions.
    This policy should also build around a major charm 
offensive by the United States Government in hopes of winning 
over the hearts and minds of individual Turks. This is the only 
way Turkey stays with the United States. Washington should 
consider launching massive exchange programs for journalists, 
scholars, rising politicians, opinion makers, and students, as 
well as increase its public diplomacy presence in Turkey, all 
the while confronting the AKP's policies and speaking up to 
ensure continued liberal democracy in Turkey. This can be done 
by focusing on press and Internet freedoms and continued gender 
equality, two sine qua nons of the future of Turkish democracy.
    Thank you, Mr. Chairman and members of the committee for 
giving me the opportunity to testify.
    [The prepared statement of Mr. Cagaptay follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Berman. Thank you all very much. The presentations 
were very interesting and somewhat different from one another, 
the Ambassador's and the three doctors'.
    I yield myself 5 minutes to begin the questioning period.
    Several of you said that Turkish public opinion matters 
these days in the formation of Turkish foreign policy. Sort of 
the unstated implication of that was that some of current 
foreign policy is driven by what presumably a majority, a large 
majority of the Turkish people want the government to be doing 
on these issues. At least, well, certainly one of you seems to 
reject that view and say it is the other way around: The 
party's foreign policy goals have managed to persuade the 
Turkish people to provide that support. Thinking specifically 
of the opinion toward the United States, with the ups and downs 
of the relationship, by and large, it has been a pretty close 
alliance in many areas over the many years since the end of 
World War II and the establishment of NATO.
    Why is Turkish public opinion--if you measure it, it looks 
like Turkey's public is perhaps one of the most anti-American 
of any of the countries of the world. I used to have this 
formulation that sometimes where the people disliked us the 
most, it was because we were the closest to the government and 
they were projecting on us their own hostilities toward their 
own government.
    I am not sure that is the conclusion in this context. But I 
am curious, if you can elaborate more on your view on the 
relationship of public opinion to the current Turkish foreign 
policy direction and the standing of the United States there. 
At least Dr. Cagaptay actually raised that issue at the end of 
his comments as something that we could affect by addressing it 
very directly.
    Ambassador Wilson. My colleagues are looking at me, so I 
will start. Here is the way I looked at it when I was in 
Turkey. Obviously, this was a very vexing and complicated 
subject and one that troubled me. I think when I arrived in the 
United States, one of the organizations used a thermometer to 
measure positive, warm-versus-cold feelings toward the United 
States. And the United States was around 8 degrees, which is 
getting pretty close to zero. And that obviously isn't a 
positive thing and it is not something that an ambassador wants 
to see.
    After having served there for awhile, I came to the 
conclusion that anti-Americanism, although I am not sure that 
is quite the right word, is very, very broad and is very, very 
shallow. And it has primarily, in my opinion, to do with 
specific objections to specific policies that either the United 
States has or is believed to have, in part because of wild, 
crazy, and idiotic things that one of the members referred to 
that appear in the Turkish press.
    So on the one hand, you have this sort of 8 degrees, or I 
think when I left we had improved it to 12, so it is a 50 
percent improvement, but you also have Turkey, a country that 
sends more students to the United States to study, more of its 
young people to the United States to study than any other 
country in Europe.
    It is a country whose young people and large segments of 
the rest of the population look to the United States. It is 
where they vacation. It is where they send their children to 
school. It is where they would like to do business, although 
they have had difficulty accessing the American market.
    They are not sending their children to Iranian schools, and 
they are not sending their children to Palestinian schools. 
That Western aspiration that Turkey has had for 80 years, and 
even before that, and I think a desire and interest in closer 
ties to the United States remains there, there are serious 
public objections to a range of policies. Ninety percent of 
Turks opposed the invasion of Iraq in 2003, and at least as 
high a percentage oppose our continued presence there now. That 
is baggage; and there are a number of other elements as well.
    Chairman Berman. I hate to do it, but I have to cut myself 
off.
    I am pleased to yield 5 minutes to the ranking member, Ms. 
Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. Excellent 
testimony, gentlemen.
    I want to focus on Israel-Turkey and Greece-Turkey 
relations.
    The Greek Orthodox Ecumenical Patriarchate in Istanbul is 
facing an existential threat as a result of restrictive 
policies imposed by the Turkish Government. Gentlemen, what do 
you think is the likelihood that the AKP government will revise 
those restrictive policies?
    On Israel, it has been reported that the Turkish Government 
was itself directly involved with the IHH in the mission to 
smuggle goods into the Hamas-controlled Gaza strip. That was in 
clear defiance of the naval blockade. Israel rightly defended 
itself against this provocative and dangerous act, given the 
IHH ties to violent Islamic militants, and the possibility of 
weapons being smuggled through this flotilla to Hamas.
    So, Dr. Rubin--I know you have touched on this, and I 
believe this Turkey-supported act is unacceptable--what do you 
think was the motivation by the Turkish Government? What did 
Turkey seek to accomplish? Should Israel be concerned that 
Turkey may be adopting a more direct confrontational approach 
to Israel that could make the Jewish state a target of a 
Turkish-sponsored attack?
    The first question to all, and then the Israel question to 
Dr. Rubin. And we will start with the others.
    Mr. Lesser. Thank you very much. If you allow me to make a 
point about the public opinion issue that was raised earlier--
and the thermometer, by the way, was the GMF, this poll that I 
mentioned earlier on transatlantic trends, and it is very 
striking; it was very low.
    Ms. Ros-Lehtinen. Thank you. But you can answer the 
chairman's question another time?
    Mr. Lesser. I will come back to it.
    Ms. Ros-Lehtinen. I would like to know about the relations 
with Greece and Israel.
    Mr. Lesser. On Greece and Turkey, I think you raise a very 
important point. I think there are unresolved issues in this 
relationship between Greece and Turkey which should have been 
resolved long ago. And you mentioned one of them, and it is a 
very important one.
    I was encouraged to think that this Turkish Government 
would move forward on the Halki Seminary issue and other 
things. I am now rather uncertain. I hope that does happen. I 
think what is important from our interest point of view, a 
decade ago the risk of an actual military clash between Greece 
and Turkey in the Aegean was something that we had to worry 
about on a daily basis. That is really not true anymore. We 
have unresolved political disputes, but both countries are 
devoted to tolerance.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Lesser. And I think that is meaningful.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Cagaptay. Thank you.
    In Greece, I would say Turkish-Greek relationships are 
better than they have been in a very long time; although 
problems remain, that is primarily because both countries now 
perceive threats from different places. The countries do have 
to get over some of their differences such as the cultural 
rights of the Greek minority in Turkey and the Turkish minority 
in Greece, but I would say that is really not a flaring point.
    If I could make a point on Turkish-Israeli ties, I think 
that is more crucial for our debate today. It appears to me 
that having a civilizational view of the world, the AKP 
government regards the Arab-Israeli conflict from the 
perspective of Hamas versus Israel and not Palestinian versus 
Israel. That guides the party's policies, which means the AKP 
has indexed Israel policy to Israel's Hamas policy. So that is 
really bad news for Turkish-Israeli ties in the midterm, 
although a lot of people, including able Turkish diplomats, are 
trying really hard to save that relationship and bring it to 
where it was. It is going to pick it up and bring it back to 
where it was.
    Ms. Ros-Lehtinen. Thank you. Dr. Rubin.
    Mr. Rubin. With regard to Greece, we see a pattern that has 
emerged elsewhere on other Turkish issues where there is a 
rhetoric of progress but no willingness to make substantive 
decisions behind the scenes.
    With regard to the Israel issue--and this also relates to 
the chairman's question--there is a chicken-and-egg situation; 
incitement does matter. It matters in Turkey; it matters in 
Palestine; it matters in Iran; and it matters in Pakistan. To 
cite public polling and so forth and not recognize the impact 
of a constant barrage of government statements is somewhat 
ridiculous, all the more so when the Turkish Government has 
made it the forefront of their strategy in absorbing--taking 
over newspapers and very much reducing the freedom of the 
press. This is one thing which we very much need to pay 
attention to if we are going to reverse the rhetoric--the 
incitement, which leads to Turkish public opinion being what it 
is.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. My time has 
expired.
    Chairman Berman. We will have a second round for the 
unanswered part of members' questions.
    The gentleman from New York, Mr. Ackerman, is recognized 
for 5 minutes.
    Mr. Ackerman. Thank you very much.
    The chairman properly noted in the opening remarks part of 
the hearing that for purposes of the committee, Turkey was in 
Europe. The immediate policy ramification of that was that I 
got 1 minute instead of 3 minutes for jurisdictional purposes. 
But I think that goes to part of the crux of the issue and the 
dilemma in which we find ourselves. Where is Turkey? Who is 
Turkey? Turkey seems to have this benefit as we saw at times as 
being in both worlds. ``Bi'' means both. Sometimes people who 
are bi have to make choices, not always. And sometimes you 
think being bi means being both so you can have the best of all 
worlds, if that be the case. But as is the case with people who 
are, say, biracial, they often have to make a choice of who 
they are for societal purposes. And as my kids would say, you 
hang with those with whom you are more comfortable.
    Turkey is bi. It is bicontinental. And for purposes of, 
shall we say, military association, we recognized them as a 
brother in arms and welcomed them into NATO. But for purposes 
of joining my European family, you got to be kidding, you ain't 
marrying my sister, and they were rejected.
    So you hang with whom you are more comfortable. I mean, it 
is okay to have a foot in both worlds, but if suddenly you 
realize that each of your feet are on different banana peels 
and they start moving in different directions, you have got a 
problem. I think that Turkey's identification problem and our 
relating to it are part of the problem, not the entire problem, 
but certainly a part of a very complicated formulation.
    I would like to get Turkey back. I think they are important 
for any number of a host of critical reasons. We took great 
bragging rights on having Turkey as part of the West, and it 
seems like the dynamic is readily changing. And part, of 
course, is due to a change in leadership and its 
predisposition, I would suppose, but the population seems to be 
following that direction more than enthusiastically, and that 
is rather troublesome.
    Part of the way to get it back, I guess, is in our hands. 
What can we do to get Turkey back? How do we make it part of 
our world without the demand that it completely reject the 
other world, and, at the same time, insisting on key policy 
issues that it does not go to the dark side?
    Mr. Cagaptay. Thank you, Congressman Ackerman. You have 
given us a lot of food for thought. Turkey has two identities. 
Let me ask a question: What is it that makes Turkey special?
    A lot of people will say because it is a Muslim country.
    No. There are 57 other Muslim countries. What makes Turkey 
special is it is a Muslim country with a Western overlay. It is 
a liberal democracy, a NATO ally, has good ties with Israel and 
the United States, and wants to get into the European Union. 
All of that is what makes Turkey special, not its religion, 
because there are so many other countries that share that 
religion, but not its political values.
    Under the AKP, it is those political values that have come 
under strain, from EU accession to ties with Israel to strong 
ties with the United States. So a message to get across to the 
Turkish Government would be what makes Turkey special for 
members of the United States Government and the Congress is not 
its religion; we don't care. It is its political values that we 
care. This is what distinguishes Turkey, its Western overlay.
    So how do we get Turkey back? Emphasize its NATO membership 
and EU accession as key elements of Turkey's new foreign policy 
direction.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New Jersey, Mr. Smith, is recognized for 
5 minutes.
    Mr. Smith. I would like to direct my question to Ambassador 
Wilson. I would love to hear from all of you, but there is not 
enough time.
    Religious freedom is a universally recognized human right 
enshrined in the U.N. Universal Declaration of Human Rights and 
the International Covenant on Civil and Political Rights, and 
Turkey ratified that in 2003. Article 18 couldn't be clearer on 
the religious freedom issue; yet the Turkish Government 
systematically suppresses both the Ecumenical Patriarchate, and 
especially His Holiness Bartholomew, and has forcibly closed 
the Halki Seminary. Has the United States, and especially the 
Human Rights Council, done enough to reverse this religious 
discrimination?
    Secondly, it has been said by George Santayana that those 
who cannot remember the past are condemned to repeat it. Prime 
Minister Erdogan's government's denial of the Armenian genocide 
has been compounded by its denial of the genocide in Darfur. 
When the ICC indicted Sudanese President Omar al-Bashir, who 
was scheduled to attend an OIC conference in Istanbul late last 
year, the Turkish Prime Minister said no Muslim could 
perpetrate a genocide. What does that say about his judgment?
    And, thirdly, very quickly, Natan Sharansky gave a famous 
speech at the OSCE on anti-Semitism. He said anyone can 
disagree with the Knesset, anybody can disagree with the 
government policies of Israel, but the line is crossed when any 
one of the three Ds--demonization, delegitimization, or where 
the double standard is applied. Based on what I would think is 
a rising tide--and I would appreciate your thoughts on this--is 
there a rising tide of anti-Semitism by the government in 
Ankara and by the state media?
    Ambassador Wilson. Thank you, Mr. Smith.
    Just to answer your questions briefly in reverse order, 
Turks that I talk to generally do not talk about a rising tide 
of anti-Semitism. In the last meeting I had with members of the 
Istanbul Jewish community, people were quite emphatic that 
conditions are better now than they have been for a very long 
time in Turkey. There are problems and they are serious 
problems, but I think that is noteworthy.
    Second, your comments about Turkish policy with respect to 
Sudan and comments that the Prime Minister has made, I can't 
try to defend any of that or explain any of that. I thought it 
was important when Erdogan went to, I think it was an AU or 
Arab League meeting in Khartoum, probably in 2006. He was the 
one and only person in that group who went to Darfur, who met 
with people. He delivered a couple of plane loads of 
assistance, and Turkey has continued to do that. Those are good 
things and we should be happy about them, even as we recognize 
some of the other problems.
    Mr. Smith. What does that say about his judgment? When we 
look at any leader anywhere in the world, obviously truth-
telling has to be a mainstay of that administration or that 
leadership. What does it say about it?
    Ambassador Wilson. I can't really account for that, Mr. 
Smith. I wish I could.
    On the issues related to the Ecumenical Patriarch, has the 
United States and have other Western countries done enough? If 
you judge by the results, and I think your question answers 
itself, no. The situation remains difficult in some respects. 
Not as bad as it might have been a couple of years ago. I think 
the government very recently announced actions to confer 
citizenship on all of the members of the Synod, which addresses 
an issue of the eventual election of a successor to Bartholomew 
when he should pass from the scene. That is a positive. It is 
not a good enough story.
    Mr. Rubin. Before I ever wrote my first article on Turkey, 
I went out from Iraq through Turkey, and some Turks mentioned 
to me that my name was in the Turkish newspaper as a Jewish 
enemy of Islam. It was in the newspaper Yeni Safak, a newspaper 
that has been endorsed by Prime Minister Erdogan. There was a 
constant stream of incitement when I met with the Jewish 
community, not just the leaders but Jewish community activists 
and so forth, at various trips. People, they don't perhaps 
share the opinion that the Ambassador just left.
    And I should also note, lastly, that in 2005, ``Mein 
Kampf'' became a best seller in Turkey. Part of it was because 
it was cheap. It was subsidized. The Turkish Government never 
tried to see whom it was subsidized by.
    And the last thing is that anti-Semitism and the anti-
Americanism have come part and parcel. We have seen this in the 
``Valley of the Wolves,'' a film, a vile film that was endorsed 
by the Prime Minister's wife.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New York, Mr. McMahon.
    Mr. McMahon. Thank you, Mr. Chairman.
    Dr. Cagaptay, could you give us a snapshot or maybe even a 
little more detailed snapshot of the local political climate in 
Turkey, some handicapping on the outcome of next year's 
elections, and more detail, as you mentioned in your testimony, 
more detail how the foreign policy of the current 
administration plays into those elections? Sort of give us the 
``all politics is local'' review.
    Mr. Cagaptay. Thank you, Congressman.
    Obviously, like in all countries, in Turkey foreign policy 
matters in domestic politics. But like in all countries, it is 
really domestic politics that determines the outcome of the 
elections.
    Until recently I would say there were two problems of 
Turkish politics: An increasingly authoritarian ruling party 
that goes after checks and balances, media freedom, gender 
equality, independent courts; and an ineffective opposition on 
the other hand. So you had two problems.
    The second problem now looks like it is being alleviated. 
The opposition has elected a new, charismatic leader and it is 
rising in the polls. One poll even shows the opposition party 
catching up with the AKP and passing it for the first time in 8 
years. And so no wonder that before and after the flotilla 
incident, and since then, the AKP has been using vehement anti-
Israeli rhetoric to create hysteria, which I think it will use 
in the run-up to the election.
    So I would say for the next year, unfortunately, although 
we don't want to see that, we will probably witness strong 
anti-Western, anti-European, anti-American and anti-Israeli 
rhetoric coming from the government in an effort to turn 
politics at home, where it is more competitive now, into a ball 
game where they can bring foreign policy in with the hope that 
it will help them.
    Mr. McMahon. Thank you.
    I was just thinking, I don't know if has ever happened 
before, where a leader of a democracy would try to use foreign 
policy to generate support at home and rally patriotic 
sentiments for the homeland toward outlying enemies. I guess 
that has never happened before.
    Anyway, Dr. Lesser, you mentioned some polling numbers and 
that you saw an increase in some anti-American or anti-
American, anti-Israeli sentiment. You said there was a doubling 
of the numbers. Can you tell us what those actual numbers were?
    Mr. Lesser. We will release the full data in September, but 
just roughly, as a preliminary analysis, that was referring to 
a question where we asked Turks who they would like to work 
most closely with in international affairs, and we give them a 
range, the United States, Europe, Middle Eastern neighbors, 
Russia, et cetera. The number for the Middle East, which I know 
is of a concern to us here, roughly doubled since last year.
    So, last year, if I have that correct, it was about 10 
percent said we should work most closely with the Middle East 
on international affairs. This year it was around 20 percent.
    I could give you my view, why I think that is. I think the 
political rhetoric, the fact that a lot of the key developments 
going on around Turkey have been in that region, it is in the 
news and everybody is focused on it. There are a lot of 
different explanations, but those are the numbers.
    Mr. McMahon. What are the numbers for those who wanted to 
keep working with the Americans on the foreign policy of the 
West?
    Mr. Lesser. Those are also fairly high. If you look across 
a lot of these different potential partnerships, it is pretty 
well distributed. It is not as if we are very low down. 
Although when you come to ask the kind of thermometer-like 
questions of ``Who do you like out there in the world?,'' we 
have not done well. Last year when we did the survey, there was 
a tremendous Obama bounce across Europe. As you went east, 
until you got to Turkey, this bounce got lower and lower and 
lower. And I am afraid to say in Turkey it is essentially 
nonexistent.
    Mr. McMahon. I look forward to the release of those 
numbers. I may have to add that into that basket of questions 
to be answered later, but it seems that the administration has 
gotten way too cozy with Ahmadinejad and the Iranian regime.
    What is Turkey doing to keep asylum for those who fled the 
purges after the revolution, and are they working in any way to 
persecute those who violated human rights in Iran?
    Mr. Lesser. Turkey for many, many years had a large number 
of emigre Iranians living inside the country. Some of them are 
there for political reasons, some of them are there for 
economic reasons, and some of them are simply tourists. Of 
course, it is a visa-free regime now that has been put in 
place. I don't have the precise number, but there are very 
large numbers of Iranians who have been living in Turkey for 
some time. Some number are refugees. There is also a lot of 
commercial activism--and this is an important point for our 
policy discussion. One of the problems is that we have had a 
very security-heavy relationship with Turkey. A lot of the 
focus these days for Turkey is commercial. We don't play very 
much in that game, but countries like Syria and Iraq and Iran 
do.
    Chairman Berman. The time of the gentleman has expired. The 
gentleman from Florida, Mr. Mack.
    Mr. Mack. Thank you, Mr. Chairman. I also would like to 
thank the witnesses, the panel, for being here today and giving 
us their insight.
    I would like to start off again by saying, reminding people 
of the actions that Turkey has taken with the support of Hamas, 
with the opposition to the sanctions with Iran, and their role 
in the flotilla. I don't know how anybody on this committee can 
overlook those things. I don't know how anybody on the panel 
can overlook those things. I don't know how any American can 
overlook those things. And I certainly don't see how anyone who 
believes that freedom is the core of all human progress can 
overlook those actions.
    A minute ago we heard a question: What can we do to get 
Turkey back? Give me a break. We need a paradigm shift in this 
committee, in this discussion. We are the United States of 
America. We are the land of the free and the home of the brave. 
I believe it is time that the administration take a firm stance 
on the side of freedom. President Obama's Middle East diplomacy 
has gone from weak to dangerous. He has taken our relationship 
with Israel for granted, and his administration has chosen to 
hedge its bets with countries not aligned with the United 
States' principles of freedom and our interests. In a desperate 
attempt to reach out to the Muslim world, he has turned his 
back on one of our Nation's most trusted allies. Still, 
Turkey's flippant behavior has not changed.
    Under the Obama administration, our allies have distanced 
themselves, and our allies have become further entrenched. We 
cannot continue on this path. Our success lies in our ability 
to preserve and fight for our freedom and our principles. 
Countries like Israel have proven that they are truly allies in 
an unstable Middle East. Turkey's actions, with what I have 
mentioned earlier, are not forgivable.
    If Turkey wants the support of the United States to get 
into the EU, then it needs to stand on the side of freedom; and 
for us to support Turkey without them changing their position 
is a mistake.
    So my question to you is: What does Turkey have to do to 
get America back? That should be the question that we ask in 
the United States Congress. I look forward to your answers.
    Mr. Rubin. I tend to agree with the Representative from 
Florida. If I may say, we should then implement is a whole host 
of Plan B strategies. Turkey has become over confident in its 
relationship to us. It believes it is more important to us than 
it actually is. This doesn't mean we should necessarily 
dispense with partnerships, but if we make alternate 
arrangements with, for example, air support through Romania and 
elsewhere, at the very least, even if we do keep our presence 
in Incirlik Air Base, it makes Turkey all the less able to 
pursue the slash-and-burn negotiation strategy which it has.
    I would also second your cry, if I may, for moral clarity. 
And this is something that we should hold President Erdogan 
accountable for. The United States tends to not like to engage 
in bullhorn diplomacy, but there is no reason why we can't call 
a toad a toad, and, when it comes to some of Prime Minister 
Erdogan's more noxious statements, to call him on that, to call 
the Turkish Ambassador in the United States on that, and use 
the full force of our diplomacy for U.S. interests and for the 
interests of our allies.
    Mr. Mack. Thank you.
    Mr. Cagaptay. If I may, Congressman, what can Turkey do to 
get the United States back? I would say, the chairman mentioned 
earlier for the purpose of this committee, Turkey is in Europe. 
Turkey should go back to Europe where it belongs. Both in its 
domestic politics, the AKP government should be called to 
judgment on respecting media freedoms. If Turkish media is 
free, Turkey remains a democracy and it is okay.
    And second, it should go back to Europe in its foreign 
policy. We have to take Turkey out of the Middle East to take 
the Middle East out of Turkey. That means Turkey's involvement 
in Middle East conflicts is not good for Turkey and it is not 
good for the United States, because the AKP government is not 
an impartial mediator and has failed in producing outcomes.
    On Iran or Israeli peace, I would say to bring Turkey back 
to Europe in domestic policy and foreign policy.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from North Carolina, Mr. Miller, is 
recognized for 5 minutes.
    Mr. Miller. Thank you, Mr. Chairman.
    Like Mr. Mack, I think the United States should be on the 
side of freedom. But if freedom means democracy and governments 
reflect the will of their people, that may be part of our 
problem in Turkey right now. One of the worst parts of 
democracy is that sometimes elections lead to unpalatable 
consequences for us, and that may be what we are dealing with 
in Turkey now. Certainly within our own country, support for 
secular institutions and separation of church and State waxes 
and wanes, and it is unrealistic to think that it will not in 
other parts of the world as well. Certainly throughout the 
Muslim world, there has been more support for Islamic policies 
and away from secular policies. So it is not surprising that is 
affecting Turkey to some extent as well.
    There is, in September, a package of constitutional changes 
on the ballot. The government describes those changes as 
necessary to meet some of the qualifications for admission to 
the EU. They include increasing government control over what 
have traditionally been autonomous institutions: The judiciary 
and the military. Philosophically we may support an autonomous 
judiciary, but it certainly is not consistent with American 
political philosophy to support an autonomous military. In 
fact, we have traditionally seen autonomous military power, for 
instance, in Pakistan, as entirely an unwholesome influence. 
But we probably have benefited from the autonomy of the Turkish 
military. They seem to be more pro-Western and they seem to be 
more pro-secular. They have worked closely with Israel's 
military when probably the people of Turkey are less 
sympathetic to Israel than their military.
    Do you believe that this package of constitutional changes 
will go through? Do you believe that the stated reason for 
those changes is the real reason; and what do you think the 
effect will be, particularly the effect of less autonomy for 
the military? Dr. Cagaptay, Dr. Lesser?
    Mr. Lesser. Just briefly, I do think this question of 
civil-military relations is absolutely critical for us here. 
Many of the things we have been discussing would not have 
happened under the old setup, the old regime. So the change, 
the shift, is very, very important. I think in September the 
vote on the referendum, on the constitutional package, is 
probably likely to go the way the AKP government would like, 
but it will be a very important test and a harbinger of how a 
general election in Turkey might go in the future.
    One final point. I think we need to be aware that with 
these changes in civil-military relations, who are we now 
dealing with when it comes to security and defense issues in 
Turkey? It is not so simple anymore, and they simply don't have 
that vibrant debate that we would like to see on things like 
the consequences of a ``nuclear-izing'' Iran. So we may be able 
to do some things to encourage a more vibrant debate about 
this.
    Mr. Cagaptay. Thank you, Congressman. I would say the 
question about Turkey is not that Turkey is becoming more 
democratic and we have to bear the consequences; Turkey has 
been a democracy since 1946. The question is: Is the AKP a 
democratic force?
    A democratic force is not one that comes to power 
democratically; it is one that respects democracy after it 
comes to power, including checks and balances. Just as the 
party has gone after media, taken ownership of a lot of media 
in the hands of its supporters, which is creating incitement--
and Dr. Rubin noted that--but also the constitutional amendment 
package which is coming up for a vote is a mixed bag. It has a 
lot of good things such as gender equality which I would vote 
for, but also a lot of things that would allow the government 
to eliminate checks and balances, such as appoint most of the 
members of the high courts without a confirmation process or 
other checks and balances. This is a government that already 
controls the Parliament, the executive branch, and the 
legislative, and it would give it the third branch of 
government. After that it is going for control of the media, 
the fourth estate. That is not good news for the future of a 
democracy.
    So the question is: Is this a party that respects democracy 
after it comes to power democratically? And I think this is how 
we should frame it.
    Mr. Miller. Mr. Chairman, I have so little time I will 
yield it back.
    Chairman Berman. The time of the gentleman has expired. I 
recognize, out of order, for a moment, the ranking member.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman. I just wanted to 
let the witnesses know that our side of the aisle has a special 
conference right now in the Cannon Caucus Room; and that is why 
so few, but the brave, are here. Our brothers and sisters are 
somewhere else.
    Chairman Berman. How can Turkey get them back?
    The gentleman from Georgia, Mr. Scott, is recognized for 5 
minutes.
    Mr. Scott. Thank you very much, Mr. Chairman. Let me put 
forward a word of caution here that as we make this assessment 
of Turkey, let us be careful not to rush to judgment.
    Secondly, if we are going to measure Turkey, let's make 
sure that we measure them correctly. With that in mind, Mr. 
Ambassador, let me ask you your assessment of Turkey's 
assistance in the war on terror? How would you evaluate that?
    Ambassador Wilson. Let me begin by expanding my answer a 
little bit beyond your question. I think as we assess Turkey, 
we also need to assess the many ways in which we need its help. 
On very practical issues where Americans are dying today in 
Afghanistan and Iraq, we need that help. It is critical to the 
U.S. national interest. And it is also critical to the national 
interest that we get Turkey's help on the problem of Iran's 
nuclear weapons efforts.
    So as I said in my prepared remarks, getting them back on 
board, getting them back, not in line, but together with us 
ought to be a big priority.
    War on terrorism issues is certainly a central part of what 
I was doing while I was in Ankara. Turkey has been extremely 
helpful on a range of--frankly, very sensitive on al-Qaeda-
related issues. It has been very helpful on a number of other 
terrorism matters concerning Iraq.
    Dr. Lesser noted earlier our work with Turkey--I think it 
was Dr. Lesser--on PKK. We have few partners who are closer 
with us and more effective with us on these issues.
    Mr. Scott. Thank you very much.
    Now let me ask each of you to respond to this. Throughout 
the ages and the centuries, even going back to ancient times in 
the Middle East, they have often asked the question: Is there 
no balm in Gilead? Gilead is a land on the east side of the 
Jordan that produced a particular kind of plant that had 
extraordinary healing power, and I think that is what we ought 
to talk about a bit here, and I ask your assessment.
    Do you feel that we have healing power? Is there no balm 
there now that could heal this wound that has ruptured between 
our two most foremost allies in the region, Israel and Turkey? 
Could each of you briefly respond to that? Is there balm? Can 
we do it? What must be done to heal this wound? That is what 
has to be done.
    Mr. Rubin.
    Mr. Rubin. I would say we can't heal until we diagnose and 
come to agreement on the diagnosis and recognize reality.
    Mr. Lesser. I think there has been a very natural 
recalibration. By healing, if we have in mind something that 
existed between Turkey and Israel 10 years ago, probably there 
isn't a route back to that. The question is, How far does this 
deterioration go, and where will it stop.
    I think it needn't go that far, and a lot of this is about 
the political messaging between both countries, because there 
still is a core of strategic interest there, and cooperation on 
many things. Israel and Turkey are cooperating to this day on 
the PKK in northern Iraq, just as we are.
    Mr. Scott. So you believe there is balm?
    Mr. Lesser. I believe there is balm, but it is balm within 
reason.
    Mr. Cagaptay. This is a very important question because the 
good ties between Turkey and Israel are not just good ties but 
is something that makes Turkey unique by adding this Western 
overlay and making it unique among all Muslim nations, together 
with its NATO membership, liberal democracy, EU accession, good 
ties with the United States. So the fact that it is becoming 
undone, it is quite worrisome, because it means something 
special about Turkey is disappearing.
    So is there a balm? I would say because the AKP 
government's world view has indexed Turkish-Israeli ties to 
Israel's Hamas policy, and because that is not changing anytime 
soon, unfortunately in the short term there is no quick fix to 
this.
    Perhaps Turkish diplomats are working really hard to save 
the relationship. Perhaps we will witness that it won't 
deteriorate any further, but if it is where it is, for the near 
future, I would say we should be content with the hope that 
long term, other Turks who see the world differently decide to 
build a different relationship, or back on the same 
relationship of the past with Israel. But short term, I think 
this government will stay on track with this idea of Israel 
versus Hamas and Turkey versus Israel.
    Ambassador Wilson. Very briefly, I think time heals a lot 
of wounds. This particular one will require some time.
    Second, it was very important that Israeli Minister Ben-
Eliezer met with the Turkish Foreign Minister, I think 2 or 3 
weeks ago. It ignited a little bit of controversy in Israel, 
but it was the right thing. That is why that step was taken.
    Third, Ambassador Tan, the Turkish Ambassador here, just 
came from Israel. Israel has fewer better friends in the 
Turkish system. I think he can be helpful, too.
    Chairman Berman. The time of the gentleman has expired.
    The chairman of the Europe Subcommittee, Mr. Delahunt, is 
recognized.
    Mr. Delahunt. Thank you, Mr. Chairman.
    I think it is interesting to note that since the flotilla 
incident, trade has increased between Israel and Jordan, 
according to media reports, by some 40 percent over the 
previous year. Forty percent. And that the sale of the 
aircraft, the Heron, was actually consummated post the flotilla 
incident. I would suggest that those particular examples state 
something about the relationship. I think both sides know that 
they need each other. Much as I said in my opening remarks, we 
need the Turks, they need us.
    But I want to get to the polling data for just a moment. I 
understand the polling data. I chair the Oversight Subcommittee 
of this particular committee, and we did a whole bunch of 
hearings in terms of the image of the United States. I think it 
is important to note that we weren't doing very well anywhere. 
It wasn't just Turkey. We weren't doing well with the Brits. We 
weren't doing well with the French. We weren't even doing well 
with the Irish.
    Now, I think it is important to provide context here. I am 
not happy with the fact that there is overwhelming sentiment in 
Turkey regarding the United States. We can do a lot, and I even 
think that some of the remarks and some of the notes or the 
insights, rather, recommendations as far as public diplomacy, 
yes, they exist. I visited Turkey recently, and they want to 
come here and do business. They are doing business in Tel Aviv 
right now.
    But the issue I really want to address is, and let me 
address this to Ambassador Wilson, do you view this shift in 
Turkey foreign policy as pragmatism, nationalism; or as Dr. 
Cagaptay indicates, generated by the ideology of Islamism?
    And can you give us your definition, Ambassador, of 
Islamism? Is this some nefarious plot that is going on all over 
the world? I think it is important that we start to be precise 
about what we mean because multiple interpretations can be 
drawn.
    Ambassador Wilson. I am not sure that I would want to try 
to define a term that I didn't use. I think that one important 
thing to remember is that there are a large number of countries 
with large or overwhelming majority of Muslim populations. They 
are all different. They all pursue different goals and they 
pursue them in different ways. And the idea that there is 
something out there, I think is misleading, and will take U.S. 
policy in the wrong direction.
    To your question, the origins of Turkish foreign policy and 
changes that we see today, is it pragmatism, is it nationalism 
or is it ideology; my answer would be yes. All of those things 
are going on, and there are probably some other things going 
on.
    Mr. Delahunt. So it is really not a black-and-white 
situation, it is much more nuanced than what some might 
indicate?
    Ambassador Wilson. Yes, sir. That is exactly what I 
believe. There are a number of things going on that motivate 
the government. It has to do with public opinion and it has to 
do with pragmatism. It has to do with the pushback from Europe 
and it has to do with economic opportunities. There are a 
complex of things there. I don't think that they are seen as 
intentionally taking Turkey away from NATO and away from a 
close relationship with the United States, but rather adding 
things to Turkey's international tool bag.
    Mr. Delahunt. I found it interesting, and I think Dr. Rubin 
in fact has written about this, dating back to that March 2003 
denial of American deployment through Turkey. Ironically it was 
Erdogan, the Prime Minister, that seemed to be advocating to 
allow America to transit Turkey into northern Iraq; am I 
correct on that, Ambassador Wilson?
    Chairman Berman. The gentleman's time has expired. Can you 
answer with a ``yes'' or ``no''?
    Ambassador Wilson. I can't answer it with a ``yes'' or 
``no.'' Erdogan was not Prime Minister at that time. The Prime 
Minister at that time, yes, advocated for approval of that 
measure.
    Chairman Berman. The time of the gentleman has expired.
    The ranking member of the Middle East and South Asia 
Subcommittee, Mr. Burton, is recognized for 5 minutes.
    Mr. Burton. Mr. Chairman, I want to apologize. I had 
another committee hearing and they were having votes and so I 
had to run back and forth, so I apologize for not being here.
    I think one of the things that should be asked is: What 
should the Obama administration do to engage Turkey and the 
administration over there to reestablish a closer relationship? 
I am very concerned that we see Turkey moving maybe closer to 
countries like Iran, which is a real threat to the entire 
stability of the Middle East and the administration. And the 
Secretary of State, it seems to me, should be doing everything 
that they can to make sure that our NATO ally, Turkey, stays 
close to the West as much as possible. So what should they be 
doing in your opinions, and any one of you can answer this, to 
stabilize and solidify our relationship.
    Mr. Lesser. If I may, Congressman, I think that this is a 
very important question and has a very practical side to it 
which we should be pursuing. I think the Turks, for all of 
their engagement with Iran, which troubles us, also at the end 
of the day view Iran as a troubling strategic competitor in the 
long term. And they do worry about a nuclear Iran. What are we 
going to do about it in NATO terms, what are we going to do 
about it in terms of ballistic missile defense architecture? 
All of these things that matter very keenly to us matter very 
keenly to the Turks.
    I think that, instead, we move beyond the sanctions issue. 
The Turks are never going to like sanctions, for a lot of 
reasons. There are things that we can be doing together in the 
defense realm which would build a lot of confidence, and show 
that we are dealing with the issue in a way that makes sense 
for both of our interests, as a very practical suggestion. 
Thank you.
    Mr. Cagaptay. If I may, Congressman, as well thank you for 
your question. I would say Turkey's AKP government's foreign 
policy involvement to become a mediator in Middle East 
conflicts has not produced positive results for Turkey, because 
the country has not become a regional power, as suggested by 
the AKP, nor has it produced positive results for the United 
States. The AKP appears to be a tribune to the Islamist world 
view to the West. And I would say the Obama administration 
should take Turkey from the Middle East and put it back in 
Europe, which is where it belongs both in terms of its foreign 
policy orientation and liberal democracy. That would mean 
making EU accession the key driver of U.S.-Turkish 
relationship, together with Turkey's NATO commitment. Turkey is 
a NATO ally; we don't ask for them anything that we don't ask 
from other allies. And I think that is only fair that their 
commitment should not be withering away.
    Mr. Burton. Anybody else? Yes, sir.
    Ambassador Wilson. Congressman, I would echo what my 
colleagues have said, but in a slightly different way. I think 
the Obama administration should engage very, very vigorously 
with the Turks with the problem of Iran and what we are going 
to do about it.
    Some of the ideas put forward here in terms of talking 
about this as a defense and security issue as opposed to a 
political issue I think is one useful avenue to explore. The 
administration should continue to talk very intensively about 
Iraq: What are our plans there; how do we see things 
developing; what kind of a role Turkey can play.
    Likewise on Afghanistan and, I would add, likewise on the 
Middle East. Turkey is a Middle Eastern country. To pretend 
otherwise is misleading and geographically incorrect. So having 
some of those intense conversations and extended discussions I 
think is extremely important.
    Last part. Tough words are needed when tough words are 
deserved. And where we see problems, we should talk about them. 
Primarily we should talk about them in private. There are times 
and places and ways in which we do this in public as well.
    Mr. Burton. Just one real quick question and it relates to 
the Mediterranean problem when the ships came in, the Turkish 
ships came in, and the Israelis, because they were concerned 
about weapons getting into Hamas, were checking on that 
flotilla.
    We are big supporters, all of us, of Israel. It is our big 
ally over there. We want to make sure they remain strong and 
free. What should we do to try to ameliorate the situation that 
exists currently between Turkey and Israel? What can be done 
with the United States trying to help put a little oil in the 
water, pardon the expression--bad choice of words, I guess, but 
you understand what I mean.
    Mr. Rubin. One thing which we should do is enforce the idea 
that terrorism and what is a terrorist group is not an ala 
carte proposition; that Turkey cannot simply legitimize certain 
groups and expect other groups to be delegitimized. Terrorism 
is a problem to all democracies and we should work with Turkey 
for a common definition. Hamas is a terrorist group; so is the 
PKK.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New Jersey, Mr. Sires, is recognized for 
5 minutes.
    Mr. Sires. Thank you, Mr. Chairman.
    As I listened--I listened to the statement that the foreign 
policy of Turkey is really based on the opinion of the Turkish 
people. And I was just wondering if the projection that the 
Turkish people want of Turkey--through my eyes, I see Turkey as 
the bully in the corner, especially when it comes to Cyprus, 
when it comes to Armenia, and when it comes to even Greece at 
times, now even Israel.
    This cavalier attitude also--I thought I heard them say 
that they are not really interested, they don't really care if 
they get in the European Union or not. Is this the projection 
that the people of Turkey want the government to project in the 
world? Can anybody--I just think they are kind of bullish.
    I went to Cyprus, they got 43,000 troops in Cyprus. Do they 
have to go on a mountain and put a Turkish flag the size of 
this building on that mountain just to show the people of 
Cyprus like who is boss? I mean, that is what I mean by the 
bullish attitude of Turkey. Can anybody----
    Mr. Lesser. If I could make a comment on that, I think when 
you ask Turks today whether they still support being a member 
of the European Union, a majority still say yes. That number 
has been going down, but a majority still say yes.
    If you ask on the issues, for example, one of the ones you 
mention on Cyprus, whether Turkey--whether they are willing to 
pay a cost to resolve that--they say no. Eventually those are 
not reconcilable things. If Turkey is going to become a member 
of the European Union it is going to have to solve those 
problems.
    I think this is where political leadership comes in, and 
political rhetoric comes in. I think a lot of what you are 
seeing today is simply because public opinion is being 
reinforced in its view that Turkey has ``other fish to fry,'' 
if I can put it that way, and that the European Union is not as 
important a project as it used to be. I hope we can change 
that.
    Mr. Cagaptay. I would continue, Congressman, along the 
point that most Turks want EU accession. When opinion-polled, 
they are asked why they want the process. They say, and I 
agree, that it is good for Turkey because it will make Turkey 
more of a liberal democracy and more prosperous and finally 
they can go to Paris on their honeymoons without visas. It 
kills the romance when you have to wait on line.
    But on top of it, I think Turkey's support for EU remains 
strong. The Cyprus issue, though, is a highly emotional issue 
for both people on the island. It really depends on who you ask 
where history starts. Turkish Cypriots will tell you about the 
sixties when they were persecuted by Greek Cypriot militia, and 
Greek Cypriots will tell you about the 1974 war when Turkey 
landed on the island to end hostilities. And I think the 
unification of the island will be the best thing, together with 
EU accession for Cyprus and Turkey; but that failed in 2004 
when Greek Cypriots voted against that plan despite the fact 
the Turkish Government and the Turk Cypriots supported it. So 
that was a missed opportunity. We may not have that again in 
the future, unfortunately.
    Mr. Sires. Mr. Ambassador.
    Ambassador Wilson. I am not sure that there is a lot that I 
can add to what has already been said. I hadn't thought about 
the analogy, bully in the corner. I am not sure I agree with 
it, although I think I understand where you are coming from.
    On Cyprus, which I didn't particularly address in my 
remarks, my impression certainly in the time I was there was 
that Turkey was fully supportive of the U.N. negotiating 
process. It remained very interested in the Annon plan 
proposals that had been rejected by the Greek Cypriots in 2004; 
deeply, deeply frustrated about an inability to figure out how 
to move things forward; frustration that I certainly shared, 
and I believe the State Department, U.S. Government as a whole, 
shared in moving this thing forward.
    Since then, things have moved forward a little bit in terms 
of a new U.N. process. But at least there I am not sure that I 
would be comfortable talking about Turkey's throwing its weight 
around trying to change things. The status quo, although no one 
likes it, has served a certain purpose and Turkey is not 
certainly one of those that is trying particularly to change 
it.
    Mr. Sires. Dr. Rubin.
    Mr. Rubin. Two very quick points. Turkey's narrative is one 
of foreign powers victimizing them, and historically there is 
some merit to their argument, although there are two sides. The 
more important issue is with regard to this Turkish concept of 
neo-Ottomanism. Turkey believes that surrounding countries have 
a much different--much more positive opinion of Turkey 
historically than they actually do.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Costa, is recognized for 
5 minutes.
    Mr. Costa. Thank you very much, Mr. Chairman. A lot of 
questions, little time.
    Dr. Rubin, I want to--maybe I did not hear your testimony 
correctly, but I thought you said the issue of the Armenian 
genocide was in question. I think there is pretty overwhelming 
historical consensus that it actually occurred, although that 
is still a debate within Turkey and among some other scholars, 
I guess.
    Since that is obviously a focus of the issue of Armenian 
and Turkish relations, what do you think it will take, since 
the 2009 protocols have been signed, to get that relationship 
to a stage where they can have the kind of exchanges and 
country-to-country relations that we would like to see them 
have.
    Mr. Rubin. There has been progress between Turkey and 
Armenia on a whole host of issues. Much of that has been 
because of a very quiet diplomacy and the quiet diplomacy tends 
to be more fruitful.
    With regard to the other issue, it would also be good to 
have some real reconciliation, which, as I said in my 
testimony, would involve both sides opening their archives 
completely, regardless of what they deem to be the ethnicity or 
political perspective of the historian.
    Mr. Costa. Dr. Lesser, Dr. Cagaptay, do you agree that this 
quiet diplomacy is making progress on the 2009 protocol?
    Mr. Lesser. I would agree that this is certainly the route 
that it would have to go. I think we are dealing--you heard 
this in so many comments today--with a mood of heightened 
nationalism, not only in Turkey but in the region, and it makes 
it difficult to do these big projects, like the historic 
rapprochement between Turkey and Armenia.
    My answer to the question of what is necessary to get it 
moving again is really a significant recommitment by the 
political leadership in Turkey, but also on both sides I would 
say, to that rapprochement, without it necessarily being linked 
to other things. It just complicates matters--it is valid and 
worth doing in its own right, or it is not. I think it is. I 
just have to say that.
    Mr. Costa. Is this the Turkish Government that could do 
that, like Nixon going to China?
    Mr. Lesser. Turkey is in a position--Turkey is a very, very 
powerful actor in the region, and so for Turkey to take that 
step, as it did at one point, is very significant. To recommit 
to it would be important.
    Mr. Costa. I have got other questions.
    Ambassador Wilson, when I was last in Turkey and seeing the 
new government come into power, we--I think there is consensus 
among all of you that the relationship with us and Turkey has 
always had its ups and downs, but the secular role of the 
military seems to now come into question.
    And what are the internal issues that are taking place, in 
your view, within Turkey that is causing this change?
    Ambassador Wilson. That is causing which change?
    Mr. Costa. Between the secular-military role that has 
traditionally played with in Turkey and the government.
    Ambassador Wilson. Well, clearly one of the important sets 
of reforms that Turkey had to undertake to make a credible bid 
to join the European Union was adjusting civil-military 
relations and really putting the Turkish military in sort of 
the lane that is normal for I think most Western democracies, 
where the military works on security and defense matters and 
has a limited role, if any role at all, in other domestic 
affairs. The military--that is one point.
    I think, second, at least my perception and certainly what 
people talked about in Turkey while I was there was a 
significant diminution in the military's role, in the kind of 
respect that was accorded to the military. That was quite 
different from what I heard even in 2005, to say nothing of 
what Turks tell you looking back to the last decade or the 
period before that.
    I think the military interventions have created part of 
that situation. The military's intervention in 2007 I think 
was, generally speaking----
    Mr. Costa. Before my time expires, the situation with Iran 
and them obtaining nuclear weapons--I mean, where does Turkey 
see this different than we do? I mean, they state openly that 
they don't want to see them obtain nuclear weapons, but they 
obviously see it differently.
    Ambassador Wilson. Turkey does not want Iran--in my 
opinion, Turkey does not want Iran to become a nuclear power. 
There are rivals in the region. They fear the dangers that will 
produce, and they fear all of the implications that means for 
the region. They are deeply fearful of war and of conflict, and 
view the possible acquisition of an Iranian nuclear weapon--
which they don't entirely believe--the legacy of faulty Iraq 
weapons of mass destruction intelligence affects this here--the 
possibility of a possible Iranian weapon is not as threatening 
to them as the prospects of war.
    Chairman Berman. The time of the gentleman has expired.
    The gentlelady from Texas, Ms. Jackson Lee, is recognized.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Again, this is again an important hearing, and I would 
like, to Ambassador and to Dr. Cagaptay--forgive me, Doctor; I 
will focus on doctor, but thank you.
    Let me focus in on some of the issues mentioned by my 
colleagues and that I am very interested in. First of all, I 
would like to think of the relationship between the United 
States in particular and Turkey as a two-way street. I think we 
get off kilter if we believe, or if Turkey believes, that we 
are getting more than we are giving. And we had a pretty good 
relationship, pre-political changes, and every nation has a 
right to elect the person of their choice.
    But, Ambassador, let's start with you. What role would the 
United States play in fixing this schism now between Turkey and 
Israel, which is a key element in terms of where we are as 
Western allies? And I say that because we advocated for Turkey 
to be in NATO. It is not all about they have an air base and 
they are helping us in Iraq. We hope to be out of Iraq in the 
next couple of months. And so we hope they will be helping us 
generally keep peace around the world.
    The other point that I think is enormously important is, 
what is the next steps of our relationship? The British Prime 
Minister, part of Western allies, just rooted for Turkey to be 
part of the EU. They are getting benefits. And I consider 
Turkey a friend, but I don't want to be a friend with my hat in 
hand as if I am begging. In fact, I hate that kind of foreign 
policy, period. We either work together as equals, we respect 
the fact that we have individual foreign policies, but we don't 
try to strangle each other and get mad at every drop of the 
hat.
    So, Ambassador, if you would answer that question and also 
Doctor, if you would answer that question, I would appreciate 
it.
    Ambassador Wilson. Sure. Thank you very much, 
Congresswoman.
    On Turkey-Israel, I think the administration has already 
taken some steps to try to ease the tension by facilitating a 
return of the Turks who were on board these ships, or the Mavi 
Marmara, back to Turkey, and, I think just in the last few 
days, to facilitate the return of the ships themselves or at 
least the Turkish ship back to Turkey. I have also read----
    Ms. Jackson Lee. You know, this is an important point that 
sort of gets lost and it is an important point that Israel is 
negotiating. But go right ahead.
    Ambassador Wilson. I read in the papers that we also helped 
to facilitate this meeting between Foreign Minister Davutoglu 
and Israeli Minister Ben Eliezer.
    Ms. Jackson Lee. So we need to be engaged.
    Ambassador Wilson. We need to be engaged and help them put 
this issue behind them. There are issues, fundamental issues, 
that Dr. Rubin raised that do need to be addressed and 
considered, certainly, as we figure out how to go forward. The 
practical matter.
    Ms. Jackson Lee. If you can go quickly to our next steps--
because I want the doctor to be able to respond--the next steps 
of our relationship between Turkey and the United States.
    Ambassador Wilson. As I think I have suggested earlier, I 
think what is extremely important is for us to engage on the 
substantive issues and the substantive problems that we have, 
the substantive problems we have with Turkey and the priority 
international issues where we need Turkish help and support. 
You are absolutely right; foreign policy is a two-way street, 
it is a give and take. We need Turkish assistance in a variety 
of ways, and we get it.
    Ms. Jackson Lee. And they need ours.
    Ambassador Wilson. Turkey needs our assistance in a variety 
of ways, and they get it as well.
    Ms. Jackson Lee. Doctor, if you would, two-way street. 
    Mr. Cagaptay. Thank you, Congresswoman. Put this together 
across the view that they need us as much as we need them. It 
is a two-way street. And that hasn't really gotten across, I 
would say, because every time the AKP government transgressed 
U.S. policy, inviting Hamas, defending Sudanese genocide, 
establishing contacts with Hezbollah, defending Iran's nukes, 
it got away with it. And it got the perception, therefore, that 
it is so indispensable that it can continue.
    That is why this hearing is so important, as well as 
rethinking U.S. policy to say, how do we get across the message 
that all of these things are not acceptable, but we still keep 
Turkey as an ally? And I think that would require a tough talk, 
as Ambassador Wilson mentioned, an honest conversation; but 
also a pushback on these certain issues, where having witnessed 
over and over in the last 8 years that AKP's involvement in the 
Middle Eastern conflicts does not help Turkey or the United 
States--doesn't get them out of Middle East conflicts--and the 
role of a mediator, which obviously has not produced results 
then, I think, bear the consequences. So take Turkey back out 
of the Middle East in order to take the Middle East out of 
Turkey.
    Ms. Jackson Lee. My final words in concluding, let it be 
clear to all of the Turkish people listening, we are your 
friend. But let us be a friend of equality and let us move 
forward together on behalf of the Turkish people and the people 
of the United States of America. And I say that to my friends 
who are Turkish-Americans as well.
    Thank you and I yield back.
    Chairman Berman. The time of the gentlelady has expired.
    The gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    I apologize for being late, and maybe this question was 
already asked, but I think it is worth repeating.
    For the entire panel, while many EU countries fear Turkey 
is turning its back on Europe and question Turkey's respect for 
Europe's democratic culture and Christian heritage, can you 
discuss whether you believe Turkey understands the concerns in 
light of how they treat the religious and ethnic minorities in 
Turkey and northern Cyprus? And are they truly committed to 
making the necessary reforms to alleviate these fears and show 
greater respect for the rights of these communities?
    Moreover, in light of this question, as the EU Foreign 
Affairs Chief makes her first visit to Turkey amidst a 
crumbling bid for membership, can you discuss how realistic 
Turkey's membership in the EU really is? Thank you.
    Mr. Lesser. Well, thank you.
    I think this is a critical question for a number of 
different reasons, in part because we have a very, very strong 
stake in Turkey's continued convergence with Europe, sector by 
sector, whether it is foreign policy or the economy or it is 
human rights. I think if Turkey is off of that path, all of 
those things will be much tougher to do.
    I used to be optimistic about this. I am somewhat less so 
today, because if I look at the way the debate is going in 
Turkey, and the way the debate is going in Europe, there is 
increasing ambivalence on all sides. And I am afraid we may, 
unfortunately, without a lot of effort, wind up with something 
that looks like ``privileged partnership,'' as the German 
Government and the French have been talking about, rather than 
something that looks like full membership.
    Final point. I think it is very important that the Turkey 
that 10 or 15 years from now could join Europe is not going to 
be the same Turkey. It is not going to be the same Europe 
either. We have to take that into account when we think about 
this problem.
    Mr. Rubin. I would just add that I was once very, very 
outspoken in favor of Turkey's European Union bid, but I don't 
think it is, anymore, realistic. If anything, some of the 
events of the last few years will play to the opponents in 
Europe who are afraid of Turkey for political or religious 
reasons.
    And as to the British Prime Minister's recent comments, a 
lot of those comments we hear from Britain and other states are 
positioning, knowing--the fact that they are made so 
outspokenly is more a factor of knowing they will never have to 
pay the consequences for it because Turkey will never join the 
European Union.
    Mr. Bilirakis. Thank you.
    I have one more question, if I may. The U.S. Commission on 
International Religious Freedom has listed Turkey on its watch 
list for the past 2 years. In its April 2010 report, they 
documented the persecution of minority religions in Turkey, 
including Christians whose churches are not granted legal 
status. Both the Greek and Armenian churches are prevented from 
training clergy, as you know, in Turkey.
    When will religious tolerance and freedom become a reality 
in Turkey, in your opinion? For the entire panel.
    Mr. Rubin. Shortly before Saudi Arabia gets religious 
freedom.
    Mr. Cagaptay. I am more optimistic than Dr. Rubin, and this 
why I would say the eye has to stay on the ball on EU 
accession. If you honestly want Turkey's record as a liberal 
democracy to improve, you have to make Turkey's EU accession as 
a strategic goal.
    Mr. Bilirakis. Anybody else?
    Thank you, Mr. Chairman.
    Chairman Berman. The gentleman has yielded back.
    The gentlelady from Nevada, Ms. Berkley, is recognized for 
5 minutes.
    Ms. Berkley. Thank you, Mr. Chairman. I want to thank you 
for putting together this remarkable panel. As usual, your 
leadership of this committee is astonishing to behold.
    Chairman Berman. 7 minutes. Well, 5.
    Ms. Berkley. Gentlemen, thank you very much. I don't know 
when I have enjoyed or learned more from a panel than this one, 
and I appreciate the information. What I would like to do, 
since I wasn't here for opening statements, let me make a brief 
opening statement so you know where I am coming from, and then 
I have some really amazing questions to ask that you will be 
delighted to answer.
    Over the last few years we have seen Turkey turn sharply 
away from the Western world and carry favor with the Iranians 
and Hamas, both of whom seek the destruction of our ally, 
Israel. They voted against the most recent U.N. sanctions 
against Iran, when even China and Russia, not exactly our NATO 
allies, voted for them. And Lebanon occupied by Hezbollah, 
Iran's proxy, abstained.
    In May they sent a flotilla to Gaza to break Israel's self-
defensive blockade of Hamas, creating an international 
incident, and, as far as I am concerned, directly caused the 
death of nine people that were participating in the flotilla. 
Add that to the refusal to acknowledge Armenian genocide, the 
continuous and ever more lethal incursions into neighboring 
Kurdistan, the treatment of the Greek Orthodox Patriarch, and 
the extraordinary gall of criticizing Israel for occupying the 
Gaza, when they themselves have occupied Cyprus for 36 years.
    It is becoming increasingly evident to me that we need to 
take a hard look at our relationship with Turkey, reassess 
whether it is in our continuing national security interest to 
continue it; whether they in fact have our interest in mind, 
and whether or not they can continue to be thought of as truly 
reliable allies.
    I think you can assess from my statement where I am coming 
from.
    These are my questions that I would like to ask. One is 
about EU membership. I chair the Transatlantic Dialogue which 
is Congress' ongoing relationship with the European Union 
Parliament. The EU has a set of criteria that has to be met 
before any country, including Turkey, becomes a member of the 
EU.
    Do you think that is humanly possible, as long as Turkey 
continues to occupy Cyprus? Whoever would like to answer.
    Mr. Lesser. Well, the answer to your last question is no, 
it is not possible. You know, this is not a negotiation for 
membership in the European Union that Turkey is conducting. 
They are joining a club, and one of the rules of the club is 
that you have to recognize all the members. And this is not 
going to change. So a settlement of the Cyprus problem has to 
be there.
    But let's remember this is a 10- or 15-year problem for 
Turkey at best; a lot can happen. But the point you make is 
absolutely valid. Without progress on that issue, it is just 
not going to happen.
    Ms. Berkley. Okay. Another question--this is a very 
sensitive, ticklish one, and I am hesitant to even bring it up 
publicly--a number of my constituents during the flotilla 
crisis came over to me and they said, well, Turkey is getting 
signals from the United States that the United States' and 
Israel's relationship isn't what it once was; that the 
administration is trying to distance itself from Israel; and 
consequently there would be no price to pay for Turkey's, I 
guess, initiating this crisis.
    Do you think that has any validity whatsoever? Because I 
don't know what to tell my constituents that approach me with 
that, that Turkey kind of felt empowered to do that because 
they didn't think that the United States would stand by its 
most reliable ally, Israel.
    Mr. Rubin. We should recognize there is an intrinsic value 
in and of itself to alliances and standing by friends. However, 
I would defer to what some of my co-panelists have said; that 
the flotilla wasn't an item in isolation; it followed, for 
example, a whole trajectory that began with Prime Minister 
Erdogan's embrace of Khaled Mashal, the most militant, not just 
Hamas leader, but the most militant Hamas leader at the time, 
as well as his embrace of Bashal Asad at a very sensitive time 
during the revolution.
    Mr. Cagaptay. If I may, Congresswoman, and this would also 
allow me to clarify an earlier comment about what Islamism is. 
I know Congressman Delahunt has left, but he will get a copy of 
our remarks.
    To me the flotilla incident is part of the----
    Chairman Berman. I am sorry. I'm going to have to interrupt 
you. The time has expired.
    Ms. Berkley. That 7 minutes promised didn't mean anything?
    Chairman Berman. No, that was just a gesture. I took that 
away really quickly.
    Ms. Berkley. Oh. Thank you, gentlemen, very much.
    Chairman Berman. The gentleman from Virginia, Mr. Connolly, 
is recognized for 5 minutes.
    Mr. Connolly. Thank you, Mr. Chairman. And, again, welcome 
to the panel.
    You know, listening to some of the rhetoric here, one might 
forget that this is an important relationship at stake between 
the United States and Turkey irrespective of what problems 
there may be. No relationship is problem free. Some of those 
problems are serious and some are irritants.
    Mr. Ambassador, you were the Ambassador to Turkey. Is there 
a strategic nature to the relationship between Turkey and the 
United States?
    Ambassador Wilson. Yes, sir, I believe that there is. I 
think that is appreciated in Washington. I believe it is 
appreciated in Ankara by Turkish officials, certainly, in the 
Foreign Ministry, in the military and in the government.
    Mr. Connolly. Mr. Ambassador, do we have a military base in 
Turkey?
    Ambassador Wilson. Yes. Well, we have a presence at 
Incirlik Air Base and also a smaller presence in Izmir.
    Mr. Connolly. Mr. Ambassador, are there Turkish troops in 
Afghanistan next to American troops?
    Ambassador Wilson. Yes, sir. Approximately 1,700 at 
present.
    Mr. Connolly. Is that a new phenomenon? Turkey has never 
done that before, has it?
    Ambassador Wilson. Turkey has been present in Afghanistan--
--
    Mr. Connolly. No, no, no. I am asking a different question. 
Has Turkey ever placed troops in other conflicts in which the 
United States found itself?
    Ambassador Wilson. Yes, sir. Of course, Korea.
    Mr. Connolly. Korea. How many years ago was that?
    Ambassador Wilson. 55.
    Mr. Connolly. Is Turkey a member of NATO?
    Ambassador Wilson. Yes.
    Mr. Connolly. Was that pretty important during the Cold War 
to the United States' strategic interest?
    Ambassador Wilson. Yes, it was.
    Mr. Connolly. Does Turkey share one of the largest borders 
with Iran? That is to say, if you look at bordering states, 
isn't Turkey's largest single border with Iran?
    Ambassador Wilson. I would expect that Iraq probably has 
the longest border. But it is a significant border, yes.
    Mr. Connolly. A very significant border. So they are 
neighbors.
    Ambassador Wilson. Yes, they are.
    Mr. Connolly. So, for example, if there were military 
incursion, God forbid, involving Iran, Turkey would 
necessarily, given its proximity to Iran, somehow be--it 
certainly would not be unaffected?
    Ambassador Wilson. Turkey would certainly be on the front 
lines.
    Mr. Connolly. So it might be reasonable to expect Turkey 
has its own point of view about that relationship and what 
ought to be done about it, even taking into account your point 
that they certainly do not want Iran to become a nuclear power?
    Ambassador Wilson. Correct.
    Mr. Connolly. Is Turkey a flourishing democracy?
    Ambassador Wilson. Turkey is a democracy; like many 
countries, it is a developing one.
    Mr. Connolly. Competitive party situation from an electoral 
point of view?
    Ambassador Wilson. Yes.
    Mr. Connolly. Historically, has Turkey had a strategic 
relationship or what could be viewed as a positive 
relationship, if not a strategic, within with the state of 
Israel?
    Ambassador Wilson. Yes.
    Mr. Connolly. Has it played any kind of role behind the 
scenes, or more prominently, in trying to possibly affect the 
peace process since the founding of the State of Israel?
    Ambassador Wilson. With respect to the peace process, I 
don't have personal knowledge. I know that Turkey tried to be 
helpful in securing the release of Corporal Shalit and on some 
other detainee or hostage issues.
    Mr. Connolly. Historically, has Turkey had diplomatic 
relationships with the State of Israel?
    Ambassador Wilson. Yes.
    Mr. Connolly. Has it recognized the right of the State of 
Israel to exist within peaceful borders?
    Ambassador Wilson. Yes, it does.
    Mr. Connolly. Moving forward, does Turkey still wish to 
become a member of the European Union?
    Ambassador Wilson. Yes, sir.
    Mr. Connolly. Is it in the United States' interest that 
that happen?
    Ambassador Wilson. I believe it is.
    Mr. Connolly. When you were an ambassador, what were your 
instructions from the State Department with respect to that 
issue?
    Ambassador Wilson. To encourage the Turkish authorities to 
take all the steps that they needed to, to make a credible bid 
for EU accession and to encourage the EU governments through 
their representatives in Ankara to work with Turkey toward that 
end.
    Mr. Connolly. Turkey is a Muslim majority population 
overwhelmingly; is that correct?
    Ambassador Wilson. Yes.
    Mr. Connolly. Is there another model in the Muslim world of 
a secular democratic form of government?
    Ambassador Wilson. There is no other country in the Muslim 
majority world that has a secular democracy.
    Mr. Connolly. Thank you.
    Chairman Berman. Indonesia might want to disagree.
    Mr. Rubin. So would Mali, which is ranked above Turkey by 
Freedom House.
    Chairman Berman. Mali can't have as many people as Turkey.
    Mr. Connolly. Mr. Chairman, since I have 12 seconds, Mali 
and Indonesia, the modern State of Turkey was founded how many 
years ago Mr. Ambassador?
    Ambassador Wilson. About 85.
    Mr. Connolly. By Ataturk.
    Ambassador Wilson. Yes, sir.
    Mr. Connolly. How long have the democracies in Indonesia 
and Mali been in operation?
    Ambassador Wilson. I can't speak to Mali.
    Mr. Connolly. Or the secular--I guess I am particularly 
interested in the secular aspect.
    Ambassador Wilson. Can't speak to Mali. Indonesia's current 
politics I think date somewhere from the late 1980s.
    Mr. Connolly. Thank you.
    Chairman Berman. Time of the gentleman has expired.
    And the gentleman from Florida, Mr. Deutch, is recognized 
for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. Thank you for 
assembling this panel.
    I wanted to circle back, Ambassador, to a comment you made 
about--if I understood correctly--the Turks are more concerned 
about a possible war with Iran, the nuclear weapons with Iran. 
And I would like to expand a broader discussion of those 
relations with Iran and the ultimate goal of the Turkish 
Government.
    How important are the relations? And in light of the 
broader geopolitical issues surrounding Iran and its quest for 
nuclear weapons, Turkey having voted against the Security 
Council resolution because of its relationship with Iran, 
raises other concerns.
    If you could speak--and I actually throw this open to the 
panel--if you could speak some to the broader implications of 
that relationship and whether it is merely an attempt to 
continue to have a safe border; whether there is some greater 
concern that others might have when Ahmadinejad--given the 
relationship with Ahmadinejad and others. If you could speak to 
that relationship, and I then I have a follow-up with the 
relationship with Mashal and Hamas.
    Ambassador Wilson. I think one important thing is Turkey 
borders on Iran. They are neighbors. They have to cooperate 
with Iran in a way that a lot of others do not. Turkey regards 
Iran as a problematic country; they have been rivals in the 
region for hundreds of years.
    They are, I think, concerned about rising Iranian influence 
in the region which they believe is largely driven by the 
United States' invasion of Iraq and the events that followed, 
as well as by the ongoing stalemate between Israel and the 
Palestinians. They regard that influence and Iranian action as 
counter to their interest. I think there is a dynamic there 
that is probably generally underestimated.
    As I said earlier, I think their priority with respect to 
the nuclear issue has obviously been somewhat more tilted to 
the negotiations track than to anything else. Public opinion 
plays a factor there. It is a fact that the legacy of the Iraq 
weapons of mass destruction intelligence failures have an 
effect in Turkey, both on the public, and also in the military 
and across the board among Turkey's elite; great doubt about 
the accuracy of Western information here. That is a problem 
that one has to work on.
    But it leads Turks I think largely to conclude that they 
fear the consequences of war, which looks to them like the 
obvious alternative to the possible Iranian acquisition of 
nuclear weapons. They fear that former a lot more, and they are 
determined to turn over every leaf, obviously going somewhat 
beyond where American policy would like for them to go, to turn 
over a leaf to try to make that not happen.
    On the Security Council vote----
    Mr. Deutch. If I may. I just want to follow up on the 
legacy of weapons of mass destruction argument in Iraq and 
why--I want to understand the relevancy of that with respect to 
Iran, given the knowledge that we have about the Iranian 
nuclear program. Why is that the relative comparison? And I 
would open this up to others in the panel who might have 
thoughts.
    Ambassador Wilson. I am interpreting Turkish thinking and 
what Turks tell me. But almost to a man, in officialdom and 
outside of officialdom, they believe that the intelligence or 
the information about Iraq's weapons of mass destruction was 
exaggerated and turned out not to be entirely <greek-l>be 
deg.true.
    Mr. Deutch. Dr. Rubin.
    Mr. Rubin. Yes. With regard to the WMD issue, that is 
partly a failing of U.S. public diplomacy, because the 
information coming with regard to Iran is a result of IAEA 
inspections and Iran declarations, rather than super secret 
intelligence.
    With regard to Turkey and Iran, Turkey cooperates with Iran 
with far more enthusiasm than any other of Iran's neighbors.
    And lastly, with the exception of Iraq--lastly, Ahmadinijad 
doesn't stand with the Iranian people. He was one--Erdogan was 
one of the first leaders to recognize Ahmadinijad's reelection 
back in June 2009 at a time when Ahmadinijad was massacring the 
Iranian people. It seems that Erdogan is more pro-Islamic 
Republic of Iran than he is pro-Iran.
    Mr. Deutch. Thank you. I yield back Mr. Chairman.
    Chairman Berman. All time of all people has expired, and I 
am going to resist the irresistible urge--well, at the behest 
of the ranking member, I would just like to raise one issue and 
if anybody--it is not really a question, it is more of a 
response to something you just said, Ambassador.
    It is hard--I met the Foreign Minister of Turkey several 
times. This is a very bright and sophisticated guy. I don't 
know what the people of Turkey think, but I don't--I can't buy 
that the leadership of Turkey is hugely skeptical of what 
Iran's intentions are in the wake of Qom, in the wake of how 
they pulled back from the October 1st deal, in the wake of the 
IAEA findings and reports, all far more extensive and manifest 
than was Iraq in the early part of this decade.
    This isn't a U.S. play; this is a pretty internationally 
accepted thing. So I just wanted to--all kinds of reasons, and 
legitimate ones, they may not like our approach and all that 
stuff. But I don't buy that they don't think there is a basis 
for the conclusion Iran is pursuing a nuclear weapon.
    All right, I guess I had the last word, unless somebody 
else wants it. Thank you all. This has really been a very 
interesting panel.
    All of you, nothing about my last comment should diminish 
my appreciation for your testimony and all of your testimonies. 
Thank you very much.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Pence statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Faleomavaega statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
